                              United States Department of State
                              and the Broadcasting Board of Governors

                              Office of Inspector General
Office of Inspector General

                              Semiannual Report to the Congress


                              April 1 to September 30, 2008
                               Summary of OIG Accomplishments


Financial Results:
Questioned costs
         Issued during the reporting period                                                                    $ 5,816,000
         Management decision during the reporting period                                                            $34,000
Recommendations for funds to be put to better use
         Issued during the reporting period                                                                                  $0
         Management decision during the reporting period                                                                     $0

Investigative recoveries                                                                                          $881,055

Investigative Results:
Cases opened ............................................................................................................. 109       

Cases closed ............................................................................................................... 36 

Judicial actions ............................................................................................................ 189

Administrative actions.................................................................................................         3

Hotline and complaint activity ..................................................................................... 399





Reports Issued: 52

                       Picture on the front cover: Embassy Amman, Jordan
                               Site of OIG’s new Middle East Regional Ofﬁce
                 Picture provided by Ofﬁce of Overseas Buildings Operations

                                         Requests for additional copies of this
                                         publication should be addressed to:

                                                   Ofﬁce of Inspector General
                                                   U.S. Department of State
                                                      OIG/EX, Room 810
                                                    1700 North Moore Street
                                                      Arlington, VA 22209



                                        Department of State Publication 11462
                                                Ofﬁce of Inspector General
                               TABLE OF CONTENTS



MESSAGE FROM THE ACTING INSPECTOR GENERAL...................................... 1

EXECUTIVE SUMMARY.............................................................................................3

CONGRESSIONAL ACTIVITIES AND OUTREACH ................................................9


DEPARTMENT OF STATE
MIDDLE EAST REGIONAL OFFICE ........................................................................21

AUDITS........................................................................................................................23

INSPECTIONS .............................................................................................................35

INVESTIGATIONS .....................................................................................................61

APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITES ............67

APPENDIX 2: REPORTS ISSUED .............................................................................69

APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES

     Table 1: Questioned Costs..................................................................................73

     Table 2: Funds To Be Put To Better Use .........................................................74

APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS

     Previously Reported Significant Recommendations Pending Final Action .......75

     Revised Management Decisions ........................................................................82

     Significant Management Success in Resolving and Implementing
        Recommendations .........................................................................................82

     Summary of Audit Reports Without Management Decision for More Than

        Six Months ....................................................................................................83

APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS..................................87

APPENDIX 6: MANAGEMENT AND PERFORMANCE CHALLENGE................89


BROADCASTING BOARD OF GOVERNORS
INSPECTIONS .............................................................................................................93

APPENDIX 1: BBG INVESTIGATIVE ACTIVITES..................................................95

APPENDIX 2: REPORTS ISSUED .............................................................................97

APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES

     Table 1: Questioned Costs....................... .........................................................99

      Table 2: Funds To Be Put To Better Use .......................................................100


LIST OF ABBREVIATIONS .....................................................................................101

   MESSAGE FROM THE ACTING INSPECTOR GENERAL


                                         I am pleased to present this Office of Inspec-
                                         tor General (OIG) semiannual report for the
                                         Department of State (Department) and the
                                         Broadcasting Board of Governors (BBG) for
                                         the period ending September 30, 2008, as re-
                                         quired by the Inspector General Act of 1978, as
                                         amended.

                                       The last time I had the pleasure of signing out
                                       the OIG Semiannual Report to the Congress
                                       as acting Inspector General was 1994. When
                                       I returned to OIG this past June, I found an
                                       organization far different from the one I left 13
                                       years ago. More than a decade of essentially flat
      Acting Inspector General, 

           Harold W. Geisel
	
                                       budgets had decimated OIG’s personnel, infra-
                                       structure, and morale. OIG’s FY 2007 budget
was at basically the same level it had been when I arrived in OIG in 1994, before the
1996 merger of the United States Information Agency (USIA) Office of Inspector
General and its staff and responsibilities. As a result of this and other challenges,
staffing was at its lowest point since the early years of the establishment of an inde-
pendent OIG at the Department.

Since then, I am happy to say, OIG has set itself solidly on the road to recovery.
With a strong cadre of dedicated employees and nearly $24 million in new funding
since 2007, OIG has increased staffing, begun rebuilding its core capabilities, and
expanded its fledgling overseas presence. Our Middle East Regional Office (MERO)
in Amman, Jordan, is well-established and rapidly turning out a series of key reviews
that are having a real impact on Department operations in Iraq, Afghanistan, and the
Middle East. Office of Investigations (INV) staffing has more than doubled in the
last year, and INV will be adding a Middle East division in the coming months. Be-
tween now and the end of the calendar year, MERO and INV will be putting boots
on the ground in Baghdad, Kabul, and Cairo—substantially enhancing OIG’s ability
to provide oversight and assistance for high-cost, high-risk Department and BBG
programs in the Middle East. We are grateful to Congress for the support that has
made this expansion possible. I also would like to commend the staff of the OIG
for the accomplishments, professionalism, and dedication they have demonstrated
during this transitional period.



Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   1
    Obviously, one does not overcome the effects of a decade of inadequate resources
    in less than a year. OIG staffing, despite significant growth in recent months, is still
    nearly 20 percent below the level it was when the Department and USIA OIGs
    merged in 1996. The $20.5 million in supplemental and bridge funding that has made
    this rejuvenation possible expires at the end of FY 2009, with no guarantee that
    it will continue into future fiscal years—particularly given the burden of the eco-
    nomic situation facing the U.S. Government and the American people. This situation
    requires that our efforts to restore capabilities be prudently and efficiently managed
    to provide flexibility as we work to provide a compelling return on investment that
    justifies the confidence and encouragement that Congress has demonstrated with
    the funding provided thus far. We look forward to the continued support of the
    Congress as we assist the Department and BBG to improve management; strengthen
    integrity and accountability; and ensure the most efficient, effective, and economical
    use of their resources.




                                                                Harold W. Geisel
                                                                Acting Inspector General
	




2         Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
                          EXECUTIVE SUMMARY


This semiannual reporting period was marked by a limited Office of Inspector
General (OIG) review of Bureau of Consular Affairs (CA) controls over access to
passport records in the Department of State’s (Department) Passport Information
Electronic Records System (PIERS), issuance of the first two reports from OIG’s
new Middle East Regional Office (MERO), and inspections of the Department’s
Bureau of Overseas Buildings Operations (OBO). In furtherance of its mission to
promote effective management, accountability, and positive change in the Depart-
ment, the Broadcasting Board of Governors (BBG), and the foreign affairs commu-
nity, OIG conducted audits, inspections, and investigations resulting in $5.9 million
in cost efficiencies, fines, and recoveries; six convictions and three administrative
actions from investigations; and issuance of 52 reports with recommendations to
improve Department and BBG programs and operations. A full list of reports issued
by OIG during this period can be found in Appendix 2 of each agency section of
this report. This report summarizes work carried out by OIG during the period
April 1 through September 30, 2008.



Passport Information Electronic Records System
In March 2008, after reports of breaches of a presidential candidate’s passport
records, the OIG Office of Audits initiated a limited review of CA controls over
access to the Passport Information Electronic Records System (PIERS) to determine
whether the Department adequately protects passport records and data contained in
PIERS from unauthorized access and responds effectively when incidents of unau-
thorized access occur. OIG made 22 recommendations to address the control weak-
nesses found, including the development of policies and procedures to accurately
identify the users of passport information, to detect unauthorized access to passport
and applicant information, and to respond effectively when unauthorized access has
been determined. All recommendations are considered resolved, but remain open
pending further action.

On July 10, 2008, Acting Inspector General Harold Geisel and Assistant Inspector
General for Audits Mark Duda testified before the U.S. Senate Committee on the
Judiciary on the final OIG report Controls and Notification for Access to Passport Records
in the Department of State’s Passport Information Electronic Records System (PIERS). In his
testimony, the Acting Inspector General cited the “many control weaknesses” that
OIG had found regarding “the prevention and detection of unauthorized access
to passport and applicant information and the subsequent response and disciplin-

Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   3
ary processes when a potential unauthorized access is substantiated.” The Acting
Inspector General said that the Department “should make resources available to
conduct the [necessary vulnerability and risk] assessments” of all passport systems
as quickly as possible and commended CA and the Bureau of Administration for the
immediate actions taken.

In related work, OIG conducted an investigation of a Department contract employ-
ee who improperly accessed PIERS by looking up the passport files of presidential
candidates, as well as other individuals, for nonofficial purposes. The investigation
determined that the contract employee electronically accessed through PIERS ap-
proximately 200 different passport applications without authorization. The contract
employee was terminated from his assignment with the contractor and pleaded guilty
to unauthorized computer access in violation of 18 U.S.C. Section 1030(a)(2)(B).



Middle East Regional Office
In January 2008, OIG established its first overseas office at the American Embassy in
Amman, Jordan. During this reporting period, MERO issued reports on the Depart-
ment’s management of the Iraqi special immigrant visa (SIV) program and the Iraqi
refugee resettlement program.

A MERO evaluation to determine whether the Department is effectively managing
the Iraqi SIV programs found that the Department effectively met congressional al-
locations for issuing SIVs to former Iraqi interpreters and translators, but more than
25 percent of approved applicants did not meet the program’s criteron of working
primarily as an interpreter or translator. The Department was still in the process of
formulating guidance to bureaus and embassies in the region on administering the
new SIV program. OIG identified resource allocation, eligibility screening, and fraud
prevention as significant challenges facing the program.

MERO also evaluated whether the Department is effectively managing the Iraqi
refugee resettlement program found that the U.S. Government is on track to meet,
and possibly exceed, its FY 2008 goal of resettling 12,000 Iraqi refugees in the
United States. However, the continued cooperation of the Syrian Government and a
stable security environment in Lebanon are necessary to conduct refugee-processing
operations. OIG identified a number of factors indicating that a smaller-scale pro-
cessing operation, geared toward addressing the relatively limited number of compel-
ling cases that are unable to process out of Amman, may be more appropriate for
Baghdad.



4        Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Office of Audits
During this reporting period, OIG auditors completed the last of the mandated
reviews of export controls, conducted jointly with the Inspectors General of the
Departments of Commerce, Defense, Energy, Homeland Security, and the Trea-
sury; the Central Intelligence Agency; and the United States Postal Service. From
2000 through 2006, the OIGs jointly issued nine interagency reports and 40 agency-
specific reports containing 273 recommendations to improve Federal export con-
trol policies and procedures, 29 of which were made to the Department. The 2008
interagency report determined that action on 234 of the recommendations, including
28 of the recommendations addressed to the Department, had been completed. The
remaining recommendation, stating that the Department’s Directorate of Defense
Trade Controls should “establish performance measures that detail benchmarks and
timeframes for reducing and eliminating the number of unfavorable post-license
end-use checks,” remains unresolved while the office considers “whether such mea-
sures, along with time-lines and benchmarks, would be of value in its compliance and
licensing functions.”

Independent external contractors also issued reports and related management letters
on the 2007 and 2006 financial statements of the Department; the International
Boundary and Water Commission, United States and Mexico, U.S. Section; and the
Foreign Service Retirement and Disability Fund. Under the provisions of Office of
Management and Budget (OMB) Circulars A-122, A-110, and A-133, certified public
accounting firms contracted by OIG performed agreed-upon procedures of indirect
cost rates proposed by seven Department grantees, identifying over $5 million in un-
supported questioned costs. OIG also completed 14 analytical desk reviews of single
audit reports for six entities, with Department expenditures totaling nearly $35.7 mil-
lion, to ensure whether the audit reports met reporting standards and requirements
and to identify issues requiring management attention.



Office of Inspections
During this semiannual reporting period, OIG inspectors conducted inspections of
OBO and full and limited-scope inspections of 25 overseas missions.

The OBO inspection found an organization that had successfully completed 54 new
embassy compounds (NEC) and annex office buildings between 2001 and 2008 but
was facing major challenges. The Director Ad Interim took charge in January 2008,
quickly correcting a number of organizational deficiencies; improving coordination


Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   5
and communication between regional bureaus, overseas posts, and other agencies;
and pursuing major realignments of functions and responsibilities, including efforts
to fix major operational problems in information management and human resources.

Inspectors found that the Department’s goal of constructing 150 NECs by 2018, at
a total cost of $17.5 billion, may be unrealistic, given escalating construction, com-
modity, and labor costs and the depreciation of the dollar. In response to OIG’s
global customer survey of diplomatic missions and a detailed analysis of 12 com-
pleted NECs, many posts commented favorably on the new facilities, but expressed
concerns about commissioning, post-occupancy use, and NEC maintenance. OBO’s
organizational structure was overly complex, with a lack of effective coordination,
communication, and accountability, and the contracting process was cumbersome
and complicated. Costs to support and maintain the Department’s legacy facilities
were increasing, with no effective systems in place to plan, budget, and track opera-
tion and maintenance costs.

An October 8, 2008, cable (STATE 00109155) from OBO to all diplomatic and con-
sular posts said that the OIG report on the inspection of OBO was useful in OBO’s
recently completed realignment of offices, which was done with the goal of stream-
lining the organization and improving its business processes to support its main
mission—providing safe, secure facilities for colleagues stationed abroad.

OIG also reviewed how the Department was organized and the procedures that were
in place to carry out its statutory responsibilities to identify and designate terrorist
entities and those supporting terrorism, making those entities subject to sanctions,
and to ensure that U.S. assistance funds would not inadvertently go to terrorists.
OIG reviewed both aspects of the Department’s process for vetting the names of
organizations and individuals being considered for assistance against lists of desig-
nated terrorist entities, focusing particularly on the Office of the Coordinator for
Counterterrorism (S/CT) and the Office of Terrorism Finance and Economic Sanc-
tions Policy in the Bureau of Economic, Energy, and Business Affairs (EEB). The
inspection reaffirmed a 2006 inspection recommendation that S/CT, in coordination
with the Bureau of Intelligence and Research, should facilitate the work of S/CT’s
Designation Unit by giving it better communications capabilities and easier access to
all source intelligence. While the review was in progress, the Deputy Secretary issued
timely guidance reemphasizing the responsibility of senior officials at the Depart-
ment and the U.S. Agency for International Development to apply due diligence
procedures to prevent U.S. Government assistance money from inadvertently going
to terrorists. The guidance also established an interoffice committee chaired by EEB
to coordinate and strengthen vetting policies and procedures throughout the Depart-
ment.


6        Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Office of Investigations
During this reporting period, OIG’s Office of Investigations opened 109 investi-
gations and closed 35, resulting in six convictions, two indictments, more than 14
years in imprisonment and probation, and over $880,000 in fines and recoveries.
Conflict of interest investigations resulted in termination of two employees and
judgments valued at more than $800,000.

The Office of Investigations also began a large scale investigative project involv-
ing Department employees and contract employees who were improperly ac-
cessing PIERS to look up the records of prominent American citizens, including
three Presidential candidates. The first of these cases to be resolved concluded in
September 2008 when a former contract employee pleaded guilty to accessing
over 200 different PIERS files without authorization. The Office of Investigations
anticipates that there will be additional prosecutions and administrative sanctions
going forward



International Broadcasting
In response to a congressional request, OIG reviewed actions taken by Alhurra, an
entity of the Middle East Broadcasting Networks, Inc., to strengthen its procedures
and policies, particularly its policies involving terrorists or those who support them.
OIG found that in the past year, Alhurra had taken significant steps to tighten its
procedures and policies, including updating its 2005 Journalistic Code of Ethics,
implementing new management controls over programming, and creating a journal-
istic training program.

OIG inspectors identified as a best practice the development by Embassy Asun-
cion’s public diplomacy section of a computerized system that downloads Voice of
America News with hourly updates. The recordings, made available to journalists
through a toll-free telephone line, ensure that small local media outlets have free ac-
cess to up-to-date world news.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   7
8   Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
 CONGRESSIONAL ACTIVITIES AND OUTREACH



Testimony
During this reporting period, Acting Inspector General Harold W. Geisel and As-
sistant Inspector General for Audits Mark Duda testified before the Senate Judiciary
Committee July 10, 2008, on OIG’s Review of Controls and Notification for Access to
Passport Records in the Department of State’s Passport Information Electronic Records System
(PIERS), AUD/IP-08-29, July 2008.

On June 18, 2008, Deputy Assistant Inspector General for Inspections Frank Ward
and OIG General Counsel Erich Hart testified before the House Oversight and
Government Reform Subcommittee on National Security and the Foreign Affairs
Subcommittee on OIG’s report Rule of Law Program in Afghanistan, ISP-I-08-09,
January 2008.



Congressional Mandates and Requests
In response to legislative mandates and requests from Congress, OIG conducted
the following reviews during this semiannual period. Any classified work undertaken
at Congress’s request is addressed in a separate classified annex to this semiannual
report.

In House Report 110-97 (H.R. Rep. No. 110-147, at 17 [2007]) for the State, Foreign
Operations, and Related Programs Appropriations Bill, 2008, the Committee on Ap-
propriations requested that OIG review the current programming policies and pro-
cedures at Alhurra, particularly its policies involving terrorists or those who support
them. In the subsequent explanatory statement of the Committee on Appropriations
to the Consolidated Appropriations Act, 2008 (P.L. 110-161), dated December 27,
2007, this language did not appear. However, the House subcommittee asked OIG
to prepare a report discussing actions taken by Alhurra to strengthen its procedures
and policies. Based on this request, OIG issued the inspection Alhurra’s Programming
Policies and Procedures, ISP-IB-08-45.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   9
                             Testimony on the PIERS Report

On July 10, 2008, the Acting Inspector General and the Assistant Inspector General for Audits
(AIGA) testified before the U.S. Senate Committee on the Judiciary on the OIG report Con-
trols and Notification for Access to Passport Records in the Department of State’s Passport
Information Electronic Records System (PIERS).

In March 2008, after reports of breaches of a Presidential candidate’s passport records, OIG
initiated a limited review of Bureau of Consular Affairs (CA) controls over access to passport
records in PIERS. The review was to determine whether the Department adequately protects
passport records and data contained in PIERS from unauthorized access and responds ef-
fectively when incidents of unauthorized access occur.

In his testimony, the Acting Inspector General cited the “many control weaknesses” that OIG
had found regarding “the prevention and detection of unauthorized access to passport and
applicant information and the subsequent response and disciplinary processes when a poten-
tial unauthorized access is substantiated.”

In his testimony, the AIGA said the Department had stated that in some cases the lack of
resources contributed to the lack of controls and to the Department’s ability to assess vulner-
abilities and risk. OIG described security and management practices used by the Internal
Revenue Service and the Social Security Administration as examples of where the Depart-
ment could make similar improvements, and it made 22 recommendations to address the
control weaknesses found with safeguarding passport records.

The AIGA further stated that OIG did not verify instances of unauthorized access. However,
OIG did conduct a judgmentally determined study at the initiation of the review to identify the
frequency with which the records for 150 high-profile individuals were accessed in PIERS
between September 2002 and March 2008. The AIGA said that the results revealed “several
patterns that raised serious concerns about the potential for undetected unauthorized access
to passport records.” Specifically, of the 150 names included in the study, records of 127
individuals (85 percent) had been accessed at least once. The query results showed a total
of 4,148 hits to the passport information for these individuals. The AIGA said that OIG had not
made a determination as to whether the hits represented authorized or unauthorized access
and that although an 85 percent hit rate appears to be “excessive,” the Department lacks
criteria to determine whether this is actually “an inordinately high rate.”

The Acting Inspector General said that the Department “should make resources available
to conduct the [necessary vulnerability and risk] assessments” of all passport systems “as
quickly as possible” and that CA should “ensure the accuracy of Privacy Impact Assessments
for PIERS and for all other passport systems to accurately reflect security controls for and
risks to personally identifiable information [PII].” However, the Acting Inspector General com-
mended CA and the Bureau of Administration for the “immediate actions taken,” which includ-
ed “issuing interim guidance on the various steps to be followed and decisions to be made
in response to a potential incident of unauthorized access to passport records and applicant
[PII], and a Department-wide [PII] breach response policy.”



    10       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
As mandated by the Federal Information Security Management Act of 2002
(FISMA) (44 U.S.C. § 3545), OIG issued the report Review of the Information Security
Program of Sensitive Compartmented Information Systems at the Department of State, AUD/
IT-08-33, which is summarized in the classified annex to this report.

As mandated by the National Defense Authorization Act for FY 2000 (P.L. 106-65),
Title XIV, a joint review was conducted by the Departments of State, Commerce,
Defense, Energy, Homeland Security, Agriculture, and the Treasury; the Central
Intelligence Agency; and the United States Postal Service. The report was entitled
Interagency Review of Prior Inspector General Recommendations Related to U.S. Export Controls
D-2008-095, September 2008.

As mandated in the Tom Lantos and Henry J. Hyde United States Global Leader-
ship Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008
(P.L. 110-293), the Department’s OIG participated in developing a coordinated audit
plan for fiscal year 2009 that was finalized in response to P.L. 110-293 to provide
oversight to programs implemented under this act. It was signed by the Inspectors
General for the Department, Health and Human Services (HHS), and U.S. Agency
for International Development (USAID) on September 26, 2008.

As mandated by the Chief Financial Officers Act of 1990 (P.L. 101-576, as amend-
ed), OIG directed and monitored the following financial statement audits and other
work conducted by an independent external auditor:


AUD/FM-08-04              Management Letter Related to the Audit of the Department
                          of State 2007 and 2006 Financial Statements

AUD/FM-08-24              Independent Auditor’s Report on the International Bound
                          ary and Water Commission, United States and Mexico, U.S.
                          Section, 2007 and 2006 Financial Statements

AUD/FM-08-25              Management Letter Related to the Audit of the International
                          Boundary and Water Commission, United States and Mexico,
                          U.S. Section, 2007 and 2006 Financial Statements

AUD/FM-08-26              Independent Auditor’s Report on the Foreign Service Retire
                          ment and Disability Fund 2007, 2006, and 2005 Financial
                          Statements




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   11
AUD/FM-08-27                 Management Letter Related to the Audit of the Foreign Ser
                             vice Retirement and Disability Fund 2007, 2006, and
                             2005 Financial Statements

AUD/FM-08-38                 Independent Accountant’s Report on the Application of
                             Agreed-Upon Procedures: Retirement, Health Benefits, and
                             Life Insurance Withholdings/Contributions and
                             Supplemental Semiannual Headcount Report
                             Submitted to the Office of Personnel Management



Media Assistance and Outreach
	
During this semiannual period, OIG made its reports available to and responded to
an increased number of media inquires about work it performed and other related
matters. During this period, OIG responded to 31 media inquires related to 17 dif-
ferent issues.

Listed in order of issues that drew the most inquiries, OIG responded to the follow-
ing from major media:

•		 Audit and investigation into allegations that Department contract employees ac-
    cessed passport records of presidential candidates without authorization. (6)

•		 Middle East Regional Office reviews of Iraq Special Immigrant Visas and Iraq
    Refugee Processing (2)

•		 Inquiries into OIG’s Web site and disclosure policy (2)

•        Oversight work related to AEY, Inc. and contracting issues in Albania. (2)

An additional 10 inquiries were received regarding work currently in process.




Outreach

As part of continuing efforts to promote accountability through better awareness of
OIG’s role, mission, and services, the OIG staff participated in the following out-
reach activities during this semiannual period:



    12        Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
•		 OIG senior staff from the Offices of Audits, Inspections, Investigations, and
    General Counsel made presentations in response to requests by the senior staff
    of the House and Senate Appropriations Committee Subcommittee on Foreign
    Operations, the House Foreign Affairs Committee and the Senate Foreign Rela-
    tions Committee, the House Oversight and Government Reform Committee,
    and the Senate Homeland Security and Government Reform Committee.

•		 With “boots on the ground,” OIG conducted briefings for members of a Con-
    gressional staff delegation in Baghdad on August 25, 2008. The Office of Audits
    briefed the delegation on the ongoing audit of the Blackwater world-wide pro-
    tective services contract, and the Middle East Regional Office provided an over-
    view of its mission and oversight activities. OIG’s General Counsel accompanied
    the delegation on its two-day schedule of meetings with Embassy Baghdad’s
    leadership and representatives of various U.S. and Iraqi oversight, programmatic,
    and law enforcement offices.

•		 OIG changed its Web posting policies and practices in April 2008 to facilitate
    public access to many more OIG products. Since the old OIG Web posting
    policy was changed, 93 additional inspections, reviews and audits, dating from
    2003 through 2009 have been posted on OIG’s public Web site. New oversight
    products are now routinely posted on the site following appropriate reviews and
    clearances.

•		 MERO staff made presentations to numerous Embassy officials in Baghdad
    and other locations in the Middle East to explain how OIG’s new Middle East
    Region Office would operate in the Middle East.

•		 Senior Office of Investigations staff engaged in fraud awareness meetings with
    22 senior embassy officials in Kabul, Baghdad, and Amman in anticipation of
    increased investigative Middle East presence.

•		 OIG senior staff from the Offices of Audits, Investigations, and Inspections
    senior staff made presentations at four ambassadorial seminars, two deputy
    chief of mission courses, and four Foreign Service officer orientations, as well as
    financial management, general services officer, and other courses offered by the
    Foreign Service Institute.

•		 OIG senior staff also met with Ambassadors and deputy chiefs of mission
    preparing to depart for new assignments to discuss areas of emphasis in their
    missions and provide suggestions to assist in the management of their missions.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   13
•		 In September 2008, as part of its recruitment process, OIG hosted an open
    house for Civil Service and Foreign Service personnel interested in career oppor-
    tunities within OIG.

•		 OIG staff from the Departments of Defense and Homeland Security recently
    attended OIG’s New Inspectors Training Course.

•		 Investigations staff gave a fraud awareness presentation to a class at the National
    Defense Intelligence College.

•		 Senior OIG staff from the Department and USAID briefed the Department’s
    new coordinator for Iraq anticorruption programs on work the OIGs have con-
    ducted or planned in Iraq.



Interagency Coordination

•		 OIG is providing assistance to the Special Inspector General for Afghanistan
    Reconstruction in establishing an office and operations in Afghanistan.

•		 OIG senior staff works closely with the Department of Defense OIG, USAID
    OIG, Special Inspector General for Afghanistan Reconstruction, and Special
    Inspector General for Iraq Reconstruction to coordinate and plan audits and
    reviews in Iraq and Afghanistan.

•		 OIG senior staff works closely with the Offices of Inspectors General for
    USAID, HHS, Peace Core, Labor, and Defense to coordinate and plan audits
    and reviews related to the United States Global Leadership Against HIV/AIDS,
    Tuberculosis, and Malaria Reauthorization Act of 2008 and the President’s
    Emergency Plan for AIDS Relief.



Legislation Monitored
OIG reviewed and monitored the following legislation during this semiannual report
period:

•		 H.R. 2642, the Supplemental Appropriations Act, 2008, now P.L. 110-252 signed
    into law on June 30, 2008, which provided OIG supplemental funding as well as
    2009 bridge funding.


14       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
•		 H.R. 2764, the Department of State, Foreign Operations, and Related Appropri-
    ations Act of 2008, which includes $33.7 million in funding for OIG for Fiscal
    Year 2008.

•		 H.R.1585, the National Defense Authorization Act for Fiscal Year 2008, now
    P.L. 110-181 (Sec. 1229), as it pertains to language establishing a Special Inspec-
    tor General for Afghanistan Reconstruction and audit requirements for Private
    Security Detail Contracts hired by the State Department in Iraq.

•		 S. 2731, Tom Lantos and Henry J. Hyde United States Global Leadership Against
    HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008, which
    would require that the Inspectors General of the Department of State, USAID,
    and HHS jointly develop five coordinated annual plans for oversight activity
    (financial audits and performance reviews) for fiscal years 2009 through 2013 for
    programs authorized under this Act and Section 104A of the Foreign Assistance
    Act.

•		 H.R. 2740, the Military Extraterritorial Jurisdiction Act Expansion and Rein-
    forcement Act of 2007, which would require Inspectors General working in
    any military theater of operations to coordinate their work with a newly created
    theater investigative unit within the Federal Bureau of Investigation (FBI).

•		 H.R. 928, S.1723, and S.2324, Improving Government Accountability Act, as
    introduced in both the House and the Senate, which amend the 1978 Inspector
    General Act.

•		 H.R. 2420, International Climate Cooperation Re-Engagement Act of 2007,
    which would assign oversight responsibility for the newly created International
    Clean Energy Foundation to OIG.

•		 S. 1825, Commission on Wartime Contracting Establishment Act, which would
    assign oversight review of security, intelligence, and reconstruction in Iraq and
    Afghanistan to the Special Inspector General for Iraq Reconstruction in con-
    junction with State OIG and the Inspectors General from the Defense Depart-
    ment and USAID.

•		 H.R. 2764, Division D – Financial Services and Government Appropriations
    Act, 2008, Title VII, which would place certain requirements on the Web sites of
    the Department and OIG.

•		 H.R. 1469 and S. 991, the Senator Paul Simon Study Abroad Foundation Act of
    2007, as introduced in the House and Senate. Both bills assign oversight respon-
    sibilities for the newly created foundation to OIG.

Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   15
Implementation of the Government Performance 

and Results Act and the President’s Management 

Agenda
In support of the Government Performance and Results Act and the President’s
Management Agenda, OIG reviewed mission and bureau strategic plans, as well as
rightsizing and consolidation issues for each mission and office inspected during this
reporting period.




Performance Measures

From 2000 to 2006, OIG participated in issuing nine interagency reports and 40
agency-specific reports on U.S. export controls. As a result, 29 recommendations
were made to the Department, 28 of which are closed. As of the compliance fol-
lowup review during this SAR reporting period, only one recommendation remains
unresolved—that the Bureau of Political-Military Affairs, Directorate of Defense
Trade Controls (PM/DDTC), should “establish performance measures that detail
benchmarks and timeframes for reducing and eliminating the number of unfavorable
post-license end-use checks.” PM/DDTC stated that over the next year it would
consider “whether such measures, along with time-lines and benchmarks, would be
of value in its compliance and licensing functions.”




Rightsizing

The OIG team found that Embassy Tokyo made a comprehensive review of person-
nel resource requirements, identified a significant number of American and LE staff
that could either be reprogrammed or eliminated, and submitted their recommenda-
tions to the Department. The Embassy was able to initiate actions addressing the LE
staff, and some American positions have remained vacant since the departure of the
incumbents.

Although various offices in the Department have praised the study, the Department
has not initiated actions necessary to either eliminate or reprogram 23 identified
positions. If the Department’s cited $505,000 cost of support for each American


16       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
direct-hire employee were to be applied to these positions, the potential for signifi-
cant savings exists.

The methodology employed by Embassy Tokyo was similar to that used in the pri-
vate sector and should be a model for the Department to emulate. The Tokyo right-
sizing exercise was designed to increase productivity and efficiency while decreasing
waste and duplication. The focus was not only on Department elements but on the
entire mission. Agencies and activities were encouraged to think about performing
assigned missions better by doing things differently and approaching the function
as if they were just starting a mission in Japan. The head of every section, agency,
and department was asked to explain his or her organizational chart as well as the
duties and functions performed by each individual. As a result, every position in the
Embassy was closely reviewed, thus enabling management to recognize overlap and
duplication. This process gave supervisors and managers an opportunity to recom-
mend changes that could increase productivity and reduce costs.

OIG recommended that the Bureau of East Asian and Pacific Affairs, in coordina-
tion with the Bureau of Human Resources (HR), abolish or reprogram the 23 posi-
tions identified in Embassy Tokyo’s review.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   17
18   Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
U.S. Department of State
20   Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
                 MIDDLE EAST REGIONAL OFFICE




Status of Iraqi Special Immigrant Visa
Programs (MERO-IQO-08-01)

The Department of State, Office of Inspector General, Middle East Regional Office
(MERO) conducted an evaluation to determine whether the Department is effec-
tively managing the Iraqi special immigrant visa (SIV) programs.

The Department effectively met congressional allocations for issuing SIVs to former
Iraqi (and Afghan) interpreters and translators for FYs 2006 and 2007, and is on pace
to meet the FY 2008 goal. However, OIG’s analysis of a large sample of completed
and active case files, indicated more than 25 percent of approved applicants did not
meet the program’s criteria of working primarily as an interpreter or translator, but
rather in a wide variety of positions, such as medical doctors, warehouse workers,
and caterers. Furthermore, OIG identified a number of cases that appeared to be
outside the intent of the program, as expressed by members of Congress. These
cases resulted in SIV issuances that should have gone to either those in fear of their
or their families’ safety if they stayed in Iraq, other qualified individuals, or applicants
with no other options for obtaining visas.

The Department was still in the process of formulating guidance to bureaus and
embassies in the region regarding administering the new SIV program, known as the
Kennedy Bill, for Iraqis employed by the U.S. Government. OIG identified (1) al-
locating resources, (2) screening for eligibility, and (3) fraud prevention as significant
challenges for executing this program.




Status of U.S. Refugee Resettlement Processing
for Iraqi Nationals (MERO-IQO-08-02)

MERO conducted an evaluation to determine whether the Department is effectively
managing the Iraqi refugee resettlement program.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   21
The U.S. Government is on track to meet, and possibly exceed, its goal of resettling
12,000 Iraqi refugees in the United States in FY 2008. An important caveat is the
continued cooperation of the Syrian Government and a stable security environment
in Lebanon to conduct refugee processing operations. There are currently large-
scale Iraqi refugee processing operations in Syria, Jordan, Turkey, and Lebanon, with
smaller programs in Egypt and other countries in the region.

The Refugee Crisis in Iraq Act of 2007 requires the establishment of a refugee
processing mechanism in Iraq. OIG has identified a number of factors that indicate
a smaller-scale processing operation, geared toward addressing the relatively limited
number of compelling cases that are unable to process out of Amman, may be more
appropriate for Baghdad.




 22      Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
                                     AUDITS



Review of Controls and Notification for Access
to Passport Records in the Department of
State’s Passport Information Electronic Records
System (PIERS) (AUD-IP-08-29)

In March 2008, media reports surfaced that the passport files maintained by the
Department of three U.S. Senators, who were also presidential candidates, had been
improperly accessed by Department employees and contract staff. On March 21,
2008, following the first reported breach and at the direction of the Acting Inspector
General, the Office of Audits initiated a limited review of CA’s controls over access
to passport records in the Department’s Passport Information Electronic Records
System. Specifically, this review focused on determining whether the Department (1)
adequately protects passport records and data contained in PIERS from unauthor-
ized access and (2) responds effectively when incidents of unauthorized access occur.

OIG found many control weaknesses—including a general lack of policies, proce-
dures, guidance, and training—relating to the prevention and detection of unauthor-
ized access to passport and applicant information and the subsequent response and
disciplinary processes when a potential unauthorized access is substantiated. In some
cases, Department officials stated that the lack of resources contributed to the lack
of controls and to the Department’s ability to assess vulnerabilities and risk. OIG
made 22 recommendations to address the control weaknesses found, including the
development of policies and procedures to accurately identify the users of passport
information, to detect unauthorized access to passport and applicant information,
and to respond effectively when unauthorized access has been determined. All of the
recommendations are considered resolved, but remain open pending further action.

 In addition, after the passport record breaches were publicized, the Department
took some immediate actions, which included issuing interim guidance on the vari-
ous steps to be followed and decisions to be made in response to a potential incident
of unauthorized access to passport records and personally identifiable information
(PII) of an applicant, and a Department-wide PII breach response policy. Additional
actions are underway by the Department, including conducting vulnerability and risk
assessments of all passport systems.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   23
Based on this report, the Acting Inspector General and the Assistant Inspector
General for Audits testified before the Senate Judiciary Committee on July 10, 2008,
regarding controls and notification for access to passport records in PIERS.


          Interagency Review of Prior Inspector General
        Recommendations Related to U.S. Export Controls
                 (D-2008-095, September 2008)

      The National Defense Authorization Act for FY 2000, Public Law 106-
      65, mandates that the Inspectors General of certain agencies conduct
      and report the results of a joint review to determine whether manage-
      ment effectively addressed export control recommendations made pur-
      suant to the Act. There are annual reporting requirements for 8 years
      under this Act.

      Participants in this review were from the Offices of Inspector General
      for the Departments of State, Commerce, Defense, Energy, Homeland
      Security, and the Treasury; the Central Intelligence Agency; and the
      United States Postal Service. Although the Act requires the Federal
      Bureau of Investigation to participate in the review, it did not participate
      because it does not have an active role in the licensing process for
      export control technology.

      From 2000 to 2006, the OIGs participated in issuing nine interagency
      reports and 40 agency-specific reports on U.S. export controls. The
      OIGs made 273 recommendations in these 49 reports to improve
      Federal export control policies and procedures. The 2008 interagency
      report, which satisfies the eighth and final statutory reporting require-
      ment under the Act, determined that 234 of the recommendations were
      closed and that Federal managers needed to take additional actions to
      implement the 39 remaining (open) recommendations.

      From 2000 to 2006, 29 recommendations were made to the Depart-
      ment, 28 of which are closed. As of the final report, only one recom-
      mendation remained unresolved—that the Bureau of Political-Military
      Affairs, Directorate of Defense Trade Controls (PM/DDTC), should “es-
      tablish performance measures that detail benchmarks and timeframes
      for reducing and eliminating the number of unfavorable post-license
      end-use checks.” PM/DDTC stated that it would consider, over the next
      year, “whether such measures, along with time-lines and benchmarks,
      would be of value in its compliance and licensing functions.”




24      Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Management Letter Related to the Audit
of the Department of State 2007 and 2006
Financial Statements (AUD/FM-08-04)

During the audit of the Department’s 2007 and 2006 financial statements, the in-
dependent external auditor identified internal control weaknesses relating to fund
balance with Treasury, accounts receivable and payable, payroll accruals, payroll
documentation, heritage assets, deferred maintenance, compliance with the Improper
Payments Information Act, non-personnel expenses, prompt payments, controls
over cash and cash receipts at posts, information technology security, indirect cost
allocation for construction in progress, personal property, and the Foreign Service
Retirement and Disability Fund’s actuarial liability. The auditor recommended that
the Department take appropriate action to address these weaknesses.



Independent Auditor’s Report on the
International Boundary and Water
Commission, United States and Mexico, U.S.
Section, 2007 and 2006 Financial Statements
(AUD/FM-08-24)

The independent external auditor issued an unqualified opinion on the International
Boundary and Water Commission, United States and Mexico, U.S. Section’s financial
statements as of September 30, 2007 and 2006, and did not identify any material
weaknesses related to internal control or material instances of noncompliance.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   25
Management Letter Related to the Audit
of the International Boundary and Water
Commission, United States and Mexico, U.S.
Section, 2007 and 2006 Financial Statements
(AUD/FM-08-25)

During the audit of the International Boundary and Water Commission, United
States and Mexico, U.S. Section’s (USIBWC) 2007 and 2006 financial statements,
the independent external auditor identified internal control weaknesses relating to
USIBWC’s internal audits and evaluations, property and equipment, contract ac-
cruals, personnel issues, and financial reporting. The independent external auditor
recommended that USIBWC take appropriate action to address these weaknesses.



Independent Auditor’s Report on the Foreign
Service Retirement and Disability Fund 2007, 2006,
and 2005 Financial Statements (AUD/FM-08-26)

The independent external auditor issued an unqualified opinion on the Foreign
Service Retirement and Disability Fund financial statements as of September 30,
2007, 2006, and 2005, and did not identify any material weaknesses related to internal
control or material instances of noncompliance.



Management Letter Related to the Audit of
the Foreign Service Retirement and Disability
Fund 2007, 2006, and 2005 Financial
Statements (AUD/FM-08-27)

During the audit of the Foreign Service Retirement and Disability Fund’s (FSRDF)
financial statements as of 2007, 2006, and 2005, the independent external auditor
identified an internal control weakness relating to overpayments to annuitants. The
Department was not consistent in establishing an accounts receivable in a timely
manner after it discovered overpayments to annuitants. The independent external au-
ditor recommended that the Department establish accounts receivable for collection


26       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
of overpayments to annuitants as soon as overpayments are discovered. The inde-
pendent external auditor also noted opportunities for the Department to improve its
actuarial report related to FSRDF.




Independent Accountants’ Report on the
Application of Agreed-Upon Procedures:
Retirement, Health Benefits, and Life
Insurance Withholdings/Contributions
and Supplemental Semiannual Headcount
Report Submitted to the Office of Personnel
Management (AUD/FM-08-38)

Under OIG’s direction, an independent external auditor performed agreed-upon
procedures, as required by Office of Management and Budget Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements. These procedures were performed
solely to assist the Office of Personnel Management (OPM) in assessing the reason-
ableness of the retirement, health benefits, and life insurance withholdings and con-
tributions, as well as enrollment information, submitted by the Department through
the Semiannual Headcount Report. The auditor identified two instances in which
information on health insurance election submitted by the Department and informa-
tion OPM had in its files was inconsistent, two instances in which information on
basic life insurance election submitted by the Department and information OPM
had in its files was inconsistent, and four instances of reportable differences between
OPM’s calculations of life insurance coverage withholdings and the amounts submit-
ted by the Department.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   27
Independent Accountants’ Reports
During this reporting period, OIG contracted with two certified public accounting
firms, as specified, to perform agreed-upon procedures of indirect cost rates and
a final buyout claim, under the provisions of OMB (Office of Management and
Budget) Circulars A-122, Cost Principles for Non-Profit Organizations; A-110, Uniform
Administrative Requirements for Grants and Agreements With Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations; and A-133, Audits of States, Local Govern-
ments, and Non-Profit Organizations. The organizations reviewed and the results of the
agreed-upon procedures are as follows:




Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on
Indirect Cost Rates Proposed by American
Refugee Committee, Inc. (AUD/CG-08-22)

Leonard G. Birnbaum and Company, LLP, Certified Public Accountants, determined
that the American Refugee Committee had properly calculated and reported its pro-
posed indirect cost rates for the years ended December 31, 2006, and 2005. Also, the
Committee’s accounting system was adequate for accumulating and reporting indirect
costs under the provisions of Circulars A-122 and A-110. The accountants recom-
mended that the Department accept and finalize the Committee’s indirect cost rates
for the years specified, as proposed by the Committee and as recommended in the
accountants’ report.




Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on
Indirect Cost Rates Proposed by Council on
International Educational Exchange, Inc.
(AUD/CG-08-23)

OIG contracted L.F. Harris & Associates, Certified Public Accountants, P.A., to
perform certain agreed-upon procedures to determine whether the indirect cost rates
proposed by the Council on International Educational Exchange, Inc., for the fiscal


28       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
years ended August 31, 2005, 2004, and 2003, complied with applicable regulations.
The accountants found that although the Council had charged some unallowable
costs to federal programs, its accounting system was adequate to accumulate and
report indirect costs under the provisions of Circulars A-122 and A-110.

The accountants noted, in reviewing the Council’s indirect costs, that the base used
to calculate the rates was incorrectly computed, including participant support costs.
Also, the indirect cost rate calculation submitted to the Department by the Council
incorrectly calculated indirect costs as a percentage of total costs instead of indirect
costs as a percentage of direct costs. As a result, the accountants adjusted the base
and recomputed the rates reported by the Council for FYs 2005, 2004, and 2003. In
addition, the accountants questioned as unallowable Council indirect expenses of
$1,953,607, $587,049, and $2,388,577 for FYs 2005, 2004, and 2003, respectively.
The accountants recommended that the Department accept and finalize the indirect
cost rates for FYs 2005, 2004, and 2003, as recommended in the report.




Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on
Final Buyout Claim by Enviro-Management &
Research, Inc., Under Contract No. S-FBOAD-
98-D0010 (AUD/CG-08-28)

Leonard G. Birnbaum and Company, LLP, Certified Public Accountants, determined
that the January 30, 2008, final buyout claim submitted by Enviro-Management &
Research, Inc. (EMR), under Contract No. S-FBOAD-98-D0010 was reasonable,
allocable, and allowable under relevant federal cost principles and the terms and con-
ditions of the contract. The accountants concluded that the claim made by EMR was
without merit and that the Department had overpaid the amount financed for this
project. The accountants recommended that the Department decline to pay EMR’s
$146,757 buyout claim and require the contractor to reimburse the Department for
overpayments totaling $15,607.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   29
Independent Accountant’s Report on the
Application of Agreed-Upon Procedures on
the Indirect Cost Rate Proposed by Church
World Service, Inc. (AUD/CG-08-30)

Leonard G. Birnbaum and Company, LLP, Certified Public Accountants, determined
that the indirect cost rate proposed by Church World Service, Inc. (CWS), for the fis-
cal year ended June 30, 2006, was properly calculated and reported. The accountant
found CWS’s accounting system to be adequate for accumulating and reporting indi-
rect costs under the provisions of OMB Circulars A-122 and A-110. The accountant
recommended that the Department accept and finalize CWS’s indirect cost rate for
the fiscal year stated, as recommended in the report.




Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on
the Indirect Cost Rates Proposed by Project
Harmony, Inc. (AUD/CG-08-31)

Project Harmony, Inc., is a not-for-profit organization that provides professional and
training programs in a variety of settings in the United States and in countries of the
former Soviet Union. L.F. Harris & Associates, P.A., Certified Public Accountants,
determined that Project Harmony’s proposed indirect cost rates for the fiscal years
ended June 30, 2005, 2004, and 2003, were properly calculated. Also, Project Harmo-
ny’s accounting system was adequate for accumulating and reporting indirect costs
under the provisions of OMB Circulars A-122 and A-110. The accountants recom-
mended that the Department accept and finalize Project Harmony’s indirect cost
rates for the three fiscal years stated, as recommended in the report, “fully consider-
ing any additional payments by the Department or Project Harmony, as necessary, to
account for differences between the final and the recommended indirect rates.”




30       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on
Indirect Cost Rates Proposed by Nacel Open
Door, Inc. (AUD/CG-08-32)

L.F. Harris & Associates, P.A., Certified Public Accountants, performed certain
agreed-upon procedures to determine whether the indirect cost rates proposed by
Nacel Open Door, Inc. for the years ended December 31, 2005, 2004, and 2003,
complied with applicable regulations. The accountants found Nacel’s accounting
system to be inadequate for accumulating and reporting indirect costs under the
provisions of OMB Circulars A-122, A-110, and A-133. Specifically, Nacel’s current
accounting system did not meet the requirements of the circulars, and Nacel had
been experiencing “ongoing problems” with the accounting system for many years.
The May 2004 OIG report Application of Agreed-Upon Procedures on Indirect Cost Rates
Proposed by Nacel Open Door, Inc. (AUD/CG-04-30), prepared by other independent
accountants, also found Nacel’s accounting system to be inadequate for accumulat-
ing and reporting indirect costs under the provisions of the circulars. Consequently,
at that time, the independent accountants were not able to express an opinion on the
rates proposed by Nacel for grant years 1994 through 2001. Officials in the De-
partment’s Office of Logistics Management, Office of Acquisitions Management,
International Programs Division, said that they had not approved provisional or final
indirect cost rates for Nacel for the period 1998 through 2007.

The accountants were unable to confirm Nacel’s proposed indirect costs rates for
2005, 2004, and 2003 because Nacel did not provide sufficient documentation to
support its rates. Also, Circular A-122 requires that expenses incurred under federal
grants be adequately documented, be reasonable for the performance of the grant,
and be allocable. Based on their sampling of Nacel’s expenditures incurred under the
grants during 2003, 2004, and 2005, the accountants found unsupported costs total-
ing $94,524 for the 3 years.

The accountants recommended that the Bureau of Educational and Cultural Affairs
(ECA) require Nacel to fully comply with the provisions of applicable OMB circu-
lars within 60 days of the date of the report and provide ECA with verification of its
compliance by an independent public accountant. OIG also recommended that ECA
withhold funding for future grants and payments under existing grants until Nacel
was in full compliance with the applicable circulars. Further, OIG recommended that
ECA require Nacel to establish appropriate policies and procedures to ensure that

Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   31
costs under the grants are documented and accounted for in accordance with the
applicable circulars and that Nacel provide information so that ECA can make an
appropriate determination on the unsupported costs of $94,524.




Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on
the Indirect Cost Rates Proposed by The
Graduate School, USDA (AUD/CG-08-34)

Leonard G. Birnbaum and Company, LLP, Certified Public Accountants, performed
certain agreed-upon procedures to determine whether the indirect cost rates pro-
posed by The Graduate School, USDA, for the fiscal years ended June 30, 2007,
2006, and 2005, complied with applicable regulations. The accountants found the
School’s accounting system to be adequate for accumulating and reporting indirect
costs under the provisions of applicable requirements. Also, the School had properly
calculated its indirect cost rates for 2006. However, it had not always properly cal-
culated its indirect cost rates for 2007 and 2005. For example, facility rental costs of
$5.6 million and product design costs of $2.8 million were omitted from the calcula-
tions in 2007 and 2005, respectively. The accountant recommended that the Depart-
ment accept and finalize the indirect cost rates for 2007, 2006, and 2005, as recom-
mended in the report.



Nonfederal Audits of Nonprofit Institutions
OMB Circular A-133, Audits of States, Local Governments, and Nonprofit Organizations,
establishes audit requirements for specified entities receiving federal awards. Public
accounting firms employed by nonfederal entities conduct the audits. The firms file
these single audit reports with the Federal Audit Clearinghouse, and OIG reviews
audit reports involving Department funds and provides quality assurance and general
oversight.

OIG conducted its reviews using the President’s Council on Integrity and Effi-
ciency’s Uniform Guide for Initial Review of A-133 Audit Reports. The objectives of the
reviews were to determine whether the audit reports meet applicable reporting stan-
dards and OMB Circular A-133 reporting requirements and to identify issues that
may require management attention. During this reporting period, OIG completed 14


 32      Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
analytical desk reviews of single audits for six entities, with Department expenditures
totaling $35,656,367. OIG recommended that the Department ensure that internal
control weaknesses and instances of noncompliance are corrected.



   Report                Grantee             Fiscal Department         Other     Total Federal
   Number                                    Year     of State        Federal    Expenditures
                                                    Expenditures      Agency
                                                                    Expenditures
08-A133003 Scholastic, Inc.                   2005       $3,875,062            0    $3,875,062
08-A133004 Foundation                         2005        1,732,531            0     1,732,531
           for Enterprise
           Development                        2006         2,352,394                    0        2,352,394

08-A133005 William Davidson                   2004           278,121          $228,697               506,818
           Institute at the
           University of                      2005           492,519            314,318              806,837
           Michigan
                                              2006           578,658            256,771              835,429

08-A133006 World Relief of                    2005           475,502            182,957              658,459
           Minnesota
                                              2006           487,721            171,092              658,813

08-A133007 AFS-USA, Inc.                      2004         3,645,578                    0        3,645,578

                                              2005         4,660,282                    0        4,660,282

                                              2006         4,346,370                    0        4,346,370

08-A133008 LASPAU: Academic                   2004         4,544,477                    0        4,544,477
           and Professional
           Program for the                    2005         4,322,827                    0        4,322,827
           Americas, Inc.
                                              2006         3,864,325                    0        3,864,325

     TOTAL                                              $35,656,367         $1,153,835        $36,810,202




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008       33
34   Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Afghanistan                         INSPECTIONS


Domestic Operations



Inspection of the Bureau of Overseas
Buildings Operations (ISP-I-08-34)

The Bureau of Overseas Buildings Operations (OBO) successfully completed 54
new embassy compounds (NEC) and annex office buildings under the Construction
Security Program, placing over 17,000 embassy employees in secure facilities between
2001 and 2008. Current OBO leadership endeavored to build on this record by
maintaining the pace of construction while improving relations with other Depart-
ment bureaus and missions abroad that felt left out of the planning process.

The Director Ad Interim took charge in January 2008. He quickly corrected a num-
ber of organizational deficiencies and improved coordination and communication
between regional bureaus, overseas posts, and other agencies. During the inspec-
tion, he was pursuing major realignments of functions and responsibilities, including
efforts to fix major operational problems in information management and human
resources. The Director Ad Interim has made tremendous strides in a short time, but
progress has been slow and much remains to be done.

The ultimate goal of the Department is to construct 150 NECs by 2018, at a total
cost of $17.5 billion. Escalating construction, commodity, and labor costs, and the
depreciation of the dollar threaten to prevent the attainment of that very important
goal. Either the program must be scaled back, additional resources identified, or the
program stretched beyond 2018.

OIG conducted a global customer survey of diplomatic missions and a detailed anal-
ysis of 12 completed NECs. Posts commented favorably about their new facilities.
Many have received positive feedback from their host governments that the facilities
are architecturally attractive and appropriate. At the same time, posts expressed con-
cern about commissioning, post-occupancy use, and NEC maintenance.

OBO’s continuing use of the design-build and Standard Embassy Design concepts
was effective. However, the organizational structure of OBO was overly complex,
with entities operating in semi-isolation resulting in the lack of effective coordina-

Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   35
tion, communication, and accountability. The contracting process was cumbersome
and complicated, and must be streamlined. Organizational problems ultimately add
to the cost of construction projects.

The Department does not know the future costs of operating and maintaining its
facilities overseas, although OBO was addressing the problem. Costs to support and
maintain the Department’s legacy facilities were increasing. There were no effective
systems in place to plan, budget, and track operation and maintenance costs. The
Department must do a better job of identifying the resources necessary to protect its
multibillion-dollar investment.




Review of the Process for Sharing
Department Cables via the Net-Centric
Diplomacy Program (SIA-08-04)

The Net-Centric Diplomacy (NCD) program was accomplishing its intended pur-
pose of facilitating the sharing of classified and unclassified cables originating from
the Department and overseas posts with other U.S. Government agencies that have
Secret Internet Protocol Router Network (SIPRNet) access.

Some posts were not sharing cables with other government agencies via the SIPRNet
distribution (SIPDIS) caption because of the mistaken belief that posting cables to
the NCD database requires SIPRNet access.

The Department had not provided adequate guidance regarding the specific types of
personally identifiable information that should be excluded from cables posted to the
NCD, so as to avoid the potential for violations of the Privacy Act.




36       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
    Limited-Scope Review of Department of State Counterter-
     rorism Designation and Vetting Procedures (ISP-I-08-26)

    OIG reviewed how the Department was organized and the procedures
    that were in place to carry out its statutory responsibilities in two aspects
    of the fight against terrorism. First, the Department was mandated to iden-
    tify and designate terrorist entities and those supporting terrorism, mak-
    ing those entities subject to sanctions. Second, the Department and U.S.
    Agency for International Development (USAID) were required by law and
    regulation to ensure that U.S. assistance funds would not inadvertently
    go to terrorists. One important method to prevent this was by vetting the
    names of organizations and individuals being considered for assistance
    against lists of designated terrorist entities. OIG reviewed both aspects
    of this process, focusing particularly on two offices with central roles: the
    Office of the Coordinator for Counterterrorism (S/CT) and the Office of
    Terrorism Finance and Economic Sanctions Policy in the Bureau of Eco-
    nomic, Energy, and Business Affairs (EEB).

    The OIG team also revisited S/CT’s inability to comply with a 2006 in-
    spection recommendation that S/CT, in coordination with the Bureau of
    Intelligence and Research, facilitate the work of S/CT’s Designation Unit
    by giving it better communications capabilities and easier access to all
    source intelligence. This review reaffirmed the old recommendation, and
    recognized the commitment and specific steps that the two offices agreed
    upon to reach this goal. The S/CT Designations Unit was unable to fully
    and quickly engage its interagency counterparts because it did not have
    access to Intelligence Community Electronic Mail. OIG focused on this
    problem and obtained commitments from S/CT and the Bureau of Intel-
    ligence and Research that would result in Intelligence Community Elec-
    tronic Mail being provided to the Designations Unit.

    While the review was in progress, the Deputy Secretary issued timely
    guidance reemphasizing the responsibility of senior officials at the De-
    partment and USAID to apply due diligence procedures to prevent U.S.
    Government assistance money from inadvertently going to terrorists. The
    guidance also established an interoffice committee chaired by EEB to
    coordinate and strengthen vetting policies and procedures throughout the
    Department. The Director for U.S. Foreign Assistance issued instructions
    to all Department bureaus and USAID that FY 2008 funding requests must
    include a statement of compliance with the Deputy Secretary’s guidelines.
    This timely guidance also reiterated the importance of vetting.



Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   37
         Review of Department’s Use of Its Defense Export
          Licensing Watchlist in the Acquisition Process
                            (SIA-I-08-05)



     The purpose of this review was to determine the Department’s use of its
     defense export licensing Watchlist in the acquisition process, with specific
     focus on AEY, Inc. Reportedly, AEY was put on the Watchlist as early as
     April 2006. Subsequently it was awarded four contracts by the Depart-
     ment, one in December 2006, two in February 2007, and one in June
     2007.

     This review found that Department officials are not using the Watchlist in
     the acquisition process, as much of the information in the Watchlist does
     not relate to contract performance. The Watchlist was not created for the
     acquisition process but for the purpose of alerting defense export licens-
     ing officers and compliance specialists when reviewing a party’s applica-
     tion for an arms export license. However, in response to the U.S. House
     of Representatives, Committee on Oversight and Government Reform,
     hearing regarding AEY and its contracts with the U.S. Government on
     June 24, 2008, Department representatives have been meeting with
     Department of Defense acquisition experts to develop contract clause
     language that would allow the use of Watchlist information in the acquisi-
     tion process.

     During fiscal years 2004 through 2007, the Department issued 39 pur-
     chase orders to AEY for arms and munitions, totaling approximately $5.9
     million. Of these 39 purchase orders, one was cancelled, and another
     was partially cancelled. In February 2006, AEY was flagged by the De-
     partment for its inability to deliver according to its bid specifications, and,
     as a result, activity with AEY was temporarily suspended. Activity with
     AEY was reactivated in March 2006 following discussions between De-
     partment and company officials regarding the need to improve the com-
     pany’s business practices. AEY was again flagged in November 2006,
     whereupon Department acquisition officials ceased issuing new purchas-
     es to the company. This review contains no recommendations.




38        Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Overseas Missions

Bureau of African Affairs


Inspection of Embassy Abidjan, Cote d’Ivoire
(ISP-I-08-10A)
OIG’s inspection of Embassy Abidjan found
that the recently arrived Ambassador and depu-              During this semiannual reporting
ty chief of mission (DCM) were giving prior-                period, OIG issued 10 classified
ity to improving communications and morale                  annexes to overseas mission in-
within the mission. The inspection noted that               spections in Abidjan, Cote d’Ivoire;
deficiencies in management operations were                  Abuja, Nigeria; Ottawa, Canada;
compounded by poor communication within                     Rangoon, Burma; Tokyo, Japan;
the management section, as well as between the              Port Louis, Mauritius; Geneva,
management section and other mission ele-                   Switzerland; Managua, Nicaragua;
ments.                                                      La Paz, Bolivia; and Asuncion,
                                                            Paraguay. These annexes are
Embassy participation on the school board and               summarized in the classified annex
attention to school administration had been                 to this Semiannual Report to the
minimal, at best. There appeared to be no writ-             Congress.
ten record of a lease agreement granting the
school permission to lease U.S. Government-
owned property (the school’s former location) to the United Nations. The Embassy
did not know how the $2 million received from the leased property had been spent.
OIG made recommendations to address this situation.

The NEC was designed and constructed when Embassy Abidjan was a much larger
mission that served as a regional support center for West Africa. Ongoing political
turmoil had resulted in major downsizing of mission staff, leaving the current occu-
pancy of the NEC at less than two-thirds of capacity. The Embassy and OBO were
devising plans to close off large sections of the facility to reduce operating expenses.
However, post management should also develop options for relocating other U.S.
Government activities from elsewhere in Abidjan into vacant embassy office space.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   39
The President’s Emergency Plan for AIDS Relief (PEPFAR) managed an active and
cohesive program for prevention, treatment, and mitigation of HIV and AIDS under
the leadership of the Ambassador and PEPFAR coordinator. Embassy Abidjan was
maintaining a very active public diplomacy program out of its Information Resource
Center within the embassy compound and three American Corners throughout the
country. Management oversight of the American Corners, including the accountabil-
ity of funds, was deficient.




Inspection of Embassy Abuja and Consulate
General Lagos, Nigeria (ISP-I-08-25A)

The inspection occurred at a time when Embassy Abuja leadership had changed
entirely, with a new Ambassador, DCM, and principal officer in Lagos. This change
provided embassy leadership with the opportunity for a forward-looking approach—
working together to tackle the challenges and craft constructive solutions for the U.S.
presence in Nigeria.

Foreign assistance funding for Nigeria was heavily weighted toward PEPFAR at 87
percent of the total. The likelihood of even more PEPFAR funding was engendering
pressures for staff growth in several agencies. The mission’s administrative platform,
however, could not support large increases. The Ambassador was exercising her
authority judiciously in reviewing requests for new positions while ensuring the fiscal
and human resources to support them. OIG recommended that Embassy Abuja fol-
low National Security Decision Directive-38 guidelines to perform and document a
comprehensive analysis of both programmatic and administrative requirements prior
to deciding on requests to increase personnel.

Despite a robust package of incentives, staffing Lagos and Abuja was hard, with
many officers in stretch assignments, working out-of-cone, on excursion tours, or on
directed first assignments. These staffing woes, an operating budget that was lag-
ging behind program funding, and aging facilities in Lagos reduced the efficiency of
diplomatic operations.

Both the consulate office building and many U.S. Government-owned residences
in Lagos had suffered physical neglect, based partly on the view that operations in
Lagos would get smaller when the Embassy moved to Abuja in 2000. This shrinkage
is unlikely to happen. To support staff morale, the FY 2009 timetable for renova-
tions and physical security upgrades at the consulate office building and housing
units must not be allowed to slip.

40       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
The chancery annex to be built in Abuja will not provide adequate work space for
the number of employees slated to work in it. The Department should amend the
project design to increase available work space. It appeared that the Embassy’s ef-
forts to find a new, affordable warehouse in Abuja had succeeded.

Consular operations in Nigeria are atypical and difficult to manage, coordinate, and
staff. Sophisticated patterns of fraud have an impact on protecting visa and pass-
port integrity. Nonetheless, processes were essentially sound, management controls
appeared effective, and consular leadership was tackling some of the persistent
problems systematically. In both Abuja and Lagos, the OIG team discussed ways to
increase efficiency in the nonimmigrant and immigrant visa units.




Limited-Scope Inspection of Embassy
Malabo, Equatorial Guinea (ISP-I-08-33)

The U.S. Government had well-defined interests in both oil and gas exploration and
exploitation in Equatorial Guinea’s territorial waters, and in security and stability in
the Gulf of Guinea that justified a broad and serious engagement with the govern-
ment of Equatorial Guinea. Engagement with the Government of Equatorial Guin-
ea also offered the opportunity to promote a more open democratic society where
the benefits of the oil boom would bring transparency, respect for human rights, and
effective delivery of social services. Embassy Malabo had identified its priorities to
advance these goals.

In its efforts to strengthen ties with the Government of Equatorial Guinea, Embassy
Malabo met opposition from Washington, which was based on a legacy of negative
thinking about the country that stemmed from serious human rights abuses of the
past. The Embassy also met opposition from those who insisted that, despite the
importance of U.S. interests in Equatorial Guinea, the Embassy should remain small.




Limited-Scope Inspection of Embassy
Cotonou, Benin (ISP-I-08-28)

Operating from a run-down embassy complex, the Ambassador was energetically
promoting key U.S. interests in Benin, and assertively trying to upgrade the tools of
engagement necessary to promote U.S. interests. Given the comparatively limited U.S.

Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   41
engagement with Benin, apart from the various aid channels, the Ambassador and
the DCM had appropriately made assistance the centerpiece of their attention.

Embassy Cotonou was performing well in promoting U.S. business, which sold ap-
proximately $200 million in goods to Benin in 2007, double the previous year. This
result was all the more impressive given the small size of Benin’s economy. In addi-
tion, a U.S. firm landed a $67 million power plant construction project.

Since August 2007, Embassy Cotonou’s consular section had been led by a mid-level
officer who replaced a series of entry-level officers routinely rotated from the con-
sular section to the political-economic section. This position upgrade should enhance
continuity and expertise, and ensure that good management practices are followed.
The OIG team made several informal recommendations to improve the consular
section’s signage, Web site, scheduling, and records handling.

Embassy Cotonou’s ongoing academic advising was highly effective. Services include
day-long Internet-based examinations on behalf of the New Jersey-based Education-
al Testing Service to test the English language capabilities of prospective students
intending to study at U.S. universities.

General services operations had overcome resistance to implementing rules and had
upgraded workspaces and created attractive open areas for community activities. The
OIG team made informal recommendations to improve consolidated motor vehicle
operations.




Limited-Scope Inspection of Embassy
Libreville, Gabon (ISP-I-08-31)

Embassy Libreville was working to overcome prolonged staffing gaps in furthering
its key democracy, regional security, and commercial objectives. The responsibilities
of many officers at Embassy Libreville exceeded their grade or experience, leading to
inefficiencies and a prolonged learning phase. Within the constraints of its staffing,
the Embassy was assertively and effectively promoting U.S. national interests in the
oil-rich Gulf of Guinea.

OIG identified two issues with the international school. To resolve the first issue,
OIG recommended Embassy Libreville review and revise the memorandum of
understanding between the Embassy and the school to reflect what services the
Embassy will provide, including mail and pouch services for educational materials
only, and medical services only for designated teachers. The second issue related to

42       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
the school occupying U.S. Government-owned property. OIG found no documenta-
tion indicating that the Embassy collected any lease costs from the school for the use
of the property. OIG recommended Embassy Libreville conduct a market survey to
determine a reasonable market value to charge the school annually for occupying the
property or determine a market value for the property and sell it.

OIG identified drainage and water problems, including open drains within the gen-
eral services annex that back-up with raw sewage and standing water that serves as
breeder grounds for malarial mosquitoes. OIG recommended that Embassy Libre-
ville and OBO fix septic systems and rain water catchments, and cover drainage
channels.




Limited-Scope Inspection of Embassy Lome,
Togo (ISP-I-08-32)

Embassy Lome was using its assets to the maximum to advance the chief policy
goals of furthering democracy, relative prosperity, and health. With an outstanding
range of contacts within the government, Embassy Lome was well positioned to
advance U.S. law enforcement concerns, including counterterrorism and counternar-
cotics. The Ambassador and DCM had forged a flexible, productive embassy with a
strong desire to do well as a team.

Embassy Lome’s management section was working very well. The general services
section had exemplary accomplishments that included the move to the new embassy
compound. The OIG team made informal recommendations to improve the Equal
Employment Opportunity and Federal Women’s Programs, review local staffing lev-
els, and train staff on the Department’s WebPass administrative application.




Limited-Scope Inspection of Embassy
Windhoek, Namibia (ISP-I-08-43)

Embassy Windhoek was a successful mission sharply focused on the assistance
programs that dominate the U.S.-Namibian relationship and on the need to keep
Namibia’s Government on a democratic track. The massive PEPFAR program was
anchoring all U.S. assistance activity in Namibia and, in a sense, serving as the center-


Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   43
piece for Embassy Windhoek’s overall work. PEPFAR was promoting mission unity
among the agencies directly involved. This work in Namibia was compelling a new
level and type of interagency collaboration because of the sheer complexity and size
of the program.

Embassy Windhoek had repeatedly proposed that the U.S. Trade and Development
Agency work with the U.S. Department of Commerce to ensure that any trade leads
would be widely disseminated via its Trade Opportunities Program, but the U.S.
Trade and Development Agency had declined to act on this embassy initiative. Simi-
larly, with the Millennium Challenge Corporation soon to be investing in Namibia on
a major scale, it, too, could benefit American business by instituting a linkage system
between its projects and Commerce’s Trade Opportunities Program. The OIG team
recommended that Embassy Windhoek, in coordination with EEB, request that the
U.S. Trade and Development Agency and the Millennium Challenge Corporation
create direct links between their grants and the dissemination of trade leads to U.S.
firms.

The small management section was exceeding expectations. For example, the Embas-
sy had no maintenance staff; consequently, the Embassy used many Blanket Purchase
Agreements for goods and services. These multiple awards ensured competition
at the micro-purchase threshold and demonstrated the Embassy’s commitment to
customer service.




Limited-Scope Inspection of Embassy Port
Louis, Mauritius (ISP-I-08-49A)

OIG’s inspection of Embassy Port Louis found the Ambassador particularly attuned
to security issues. He was engaged in promoting American business and commer-
cial interests, and had good access to key decision makers in both government and
the private sector. OIG found that measures were needed to reduce the workload
expected of the small political-economic section, and recommended that the De-
partment determine which mandated reports could be submitted by Embassy Port
Louis on a biennial rather than annual basis. In response to inadequacies found in the
consular waiting area, OIG recommended that the processing of visa applicants be
modified to address crowd control, security, and personal comfort issues.




44       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Bureau of East Asian and Pacific Affairs
	


Inspection of Embassy Rangoon, Burma (ISP-I-08-36A)

The chargé d’affaires and the DCM provided strong leadership to Embassy Rangoon
on policy and program issues during a period of Burmese political crisis and intensi-
fied U.S. policy focus. They engaged heavily in the design and successful implementa-
tion of very imaginative small grants and public diplomacy programs, and the chargé
communicated effectively in shaping U.S. policy. However, leadership and manage-
ment of the mission by the chargé and DCM have been inconsistent and have failed
to provide necessary communication, coordination, problem solving, and fairness to
foster a genuine sense of teamwork.

The entire embassy staff worked together to accomplish a successful move into a
new chancery in September 2007, despite road closures, violent street demonstra-
tions, heavy monsoon rains, and disruptions to power and communications. The new
chancery is bright and well equipped, and the embassy staff was functioning well
within the new facility.

Faced with the challenges of a hostile political environment and tightly controlled
access to Burmese Government officials and other contacts, the chargé and the
Embassy had reached out effectively to the political opposition and civil society.
The political-economic section had produced a steady flow of reliable reporting and
analysis of value to U.S. policy makers at the highest levels, before, during, and after
the September 2007 political crisis. In an environment where traditional public out-
reach is severely limited, the active and effective public diplomacy programs of the
American Center enable the mission to reach out in a number of innovative ways to
the Burmese people.

OIG identified several areas in the human resources section that needed to be ad-
dressed. These include employment procedures for eligible family members, imple-
mentation of a wage increase for the locally employed (LE) staff, updating the LE
staff handbook, and ensuring the proper storage of sensitive personal information.
In addition, OIG recommended determining the appropriate size of some manage-
ment units and abolishing local positions in others.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   45
Inspection of Embassy Tokyo, Japan, and
Constituent Posts (ISP-I-08-39A)

The Ambassador was the driving force for an internal rightsizing exercise that
engaged each office and agency in a bottom-up examination of staffing levels that
could reduce Department of State and other agency staffing considerably over sev-
eral years. Embassy Tokyo’s rightsizing exercise was designed to increase productivity
and decrease waste in every section and agency. OIG made a recommendation that
the Department implement the recommendations that arose from the rightsizing
exercise.

The political and economic sections were providing substantial, high-quality report-
ing in a good mix of cable and e-mail form. The political-military unit was leading
important negotiations on a range of security issues and coordinating closely with
U.S. military and civilian officials in Japan, U.S. Pacific Command, and Washington.
OIG recommended that Embassy Tokyo conduct a complete review of the rela-
tive workload of all personnel in the political-military and security policy unit of
the political section, with a view to providing better balance in the workload, greater
guidance and career development for all U.S. officers, and greater clarity and delinea-
tion of the workload of the unit’s two LE staff workers.

Public diplomacy planning was well conceived, but additional steps needed to be
taken to implement the public diplomacy plan. OIG recommended that Embassy
Tokyo develop and implement a mission-wide public diplomacy plan based on cur-
rent Mission Strategic Plan goals. In addition, OIG recommended that Embassy
Tokyo conduct a customer and management review of the media analysis and
translation team production to identify and eliminate duplicative and low-priority
products and reduce outside translation by bringing this function within the media
analysis and translation team.

Consular services were being performed efficiently in the Embassy and constituent
posts, but nonimmigrant visa workload could increase substantially later this year,
depending on how the electronic travel authorization program is implemented. Child
custody issues in Japan are extremely difficult, and OIG recommended that Embassy
Tokyo prepare and implement a strategic plan to persuade the Japanese Government
to sign and ratify The Hague Convention on the Civil Aspects of International Child
Abduction and assist consular officers in gaining access to American children in
Japan who are the subject of child-custody disputes.



 46      Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Management operations, overall, were outstanding and focused on providing very
good customer service to the large mission and the consulates. OIG made recom-
mendations that Embassy Tokyo review, revise, and reprogram some LE staff posi-
tions. OIG also recommended that the Embassy encourage the LE staff association
to dissolve the executive committee that presently exists and hold an election to
select committee members that can restore viability to the association.

The five constituent posts were providing a relatively small and low-cost, yet impor-
tant, regional representation and outreach to the public and to major economic and
political-military centers. Embassy Tokyo’s intensive communications with, and good
support for, the constituent posts was helping to assure that the consulates worked
productively and were well integrated into the mission.




Bureau of European and Eurasian Affairs


Limited-Scope Inspection of Embassy
Bratislava, Slovakia (ISP-I-08-27)

The OIG team commended Embassy Bratislava for its extensive rightsizing exercise
that produced significant cost savings and eliminated several LE staff and two Amer-
ican positions. Post management was making minor adjustments with the contractors
who replaced the LE staff. Embassy Bratislava should be rewarded by the Depart-
ment of State with a portion of the resulting financial savings, including those made
in centrally held and post budgets.

The Ambassador and DCM were providing strong executive direction for Embassy
Bratislava. The Ambassador was seeking to improve coordination among sections
by designating mission-wide managers for key issues. The FY 2010 Mission Strategic
Plan was even tighter and clearer than the FY 2009 version praised by the Depart-
ment.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   47
The political/economic section had successfully lobbied the Slovak Government to
moderate draft laws restricting the press and nongovernmental organizations while
reassigning responsibilities to cope with the unanticipated loss of an American politi-
cal officer position. Return of the officer position in summer 2008 will allow the
section chief to clarify those responsibilities.




Limited-Scope Inspection of Embassy Tallinn,
Estonia (ISP-I-08-38)

Embassy Tallinn maintained the lean organizational structure envisioned when the
Department opened posts across the former Soviet Union in the early 1990s. Out-
sourcing resulted in a relatively small LE staff, and regional support provided many
other services.

The political-economic section was having difficulty managing the demands put on
it by the Department of State, post management, and its own ambitious reporting
plan. The OIG team recommended that the portfolios be redistributed more equita-
bly and the timeliness of reporting given priority over editing.

A well-managed public affairs section maintained an impressive mission-wide out-
reach program and had a close working relationship with the media, which gave the
Embassy unusually broad opportunities to present U.S. views to the Estonian public.

A low nonimmigrant visa refusal rate, coupled with Estonian progress on other leg-
islative requirements of the revised Visa Waiver Program, made Estonia a good can-
didate to be included in the program early on under the security waiver. The well-run
consular section, with post management support, maintained a productive working
relationship with the Department of Homeland Security on this issue.




Inspection of Embassy Vilnius, Lithuania
(ISP-I-08-42)

Embassy Vilnius’ post management was successful in steering the bilateral relation-
ship, advancing key U.S. goals, and keeping policy makers aware that Lithuanians
were becoming more Eurocentric and likely to follow U.S. policy leads only when
convinced of their underlying good sense.


48       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Developing and rightsizing an LE staff profile more in tune with Lithuania’s rapidly
developing economy and rising inflation was Embassy Vilnius’ greatest challenge. LE
staff compensation had not changed in four years and required adjustment.

A joint political-economic section was deeply engaged in promoting continued
Lithuanian participation in several peacekeeping operations, in working to resolve
outstanding Jewish property issues dating from the Second World War, and in carry-
ing out numerous demarches from Washington.

The Visa Waiver Program was a major issue in the bilateral relationship. Although
Lithuania was on a path to meet its benchmarks in the roadmap for the inclusion of
Lithuania in the Visa Waiver Program, Lithuanian expectations had to be managed,
and the Ambassador and his staff were doing an excellent job in that regard.




Limited-Scope Inspection of the U.S. Mission
to the United Nations Agencies in Rome
(ISP-I-08-40)

The U.S. Mission to the United Nations Agencies in Rome (USUN Rome) was well
managed and successfully pursuing U.S. goals in all six of the UN entities located
in Rome. Coordination and teamwork on the Food and Agriculture Organization
reform, a major U.S. priority, was particularly noteworthy.

Advocacy and reporting were well managed and coordinated at USUN Rome, no-
tably with regard to the Food and Agriculture Organization, World Food Program,
and International Development Law Organization. There was a need for closer
coordination between the Department of the Treasury, other Washington agen-
cies, and USUN Rome to ensure that projects funded by the International Fund for
Agricultural Development are clearly integrated into overall U.S. food and agriculture
objectives. The OIG team recommended that USUN Rome request, and the Depart-
ment fund, an LE position dedicated to facilitating the Department’s evaluation of
and advocacy of specific projects of the International Fund for Agricultural Devel-
opment. The OIG team also made an informal recommendation that USUN Rome
prepare scene-setter cables to the incoming Department of Treasury delegation to
provide some helpful project information prior to their arrival.

The Ambassador and public affairs officer had created and implemented a particu-
larly effective public diplomacy tool—a media tour that groups them and important
journalists on visits to projects in developing countries that are funded by the United

Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   49
States through the Rome UN agencies. The OIG team recommended that USUN
Rome seek an increase in its public diplomacy base program budget aligned to its
expanded use of media tours and request an LE public diplomacy position to ensure
continuity to this innovative program.



Limited-Scope Inspection of Embassy
Vatican, The Holy See (ISP-I-08-41)

The Vatican is actively engaged with a number of areas of interest to the United
States, including the Balkans, the Middle East, and China, as well as on global issues
affecting human rights, population, terrorism, and trafficking in persons. At the time
of the inspection, a newly arrived Ambassador had succeeded remarkably quickly
in energizing this small embassy and had embarked on an ambitious agenda, tied to
goals in the Mission Strategic Plan for the coming year.

As recently as 2006, the Department decided not to have Embassy Vatican relo-
cate to newly available space on the Embassy Rome compound. Embassy Vatican
has retained a small LE staff to provide services that might not be easily available
from Embassy Rome, its main provider. The Embassy is housed in a leased building
fronting on a busy street and in need of relatively costly upgrades. The OIG team
recommended that Embassy Vatican develop and implement a plan to relocate to the
Embassy Rome compound as soon as possible, with an eye toward cost savings and
improved security.

A small but vibrant political section maintains good relations with Vatican officials
and provided a steady stream of extremely well-drafted and insightful reporting to
Washington readers. Making the international relations officer generalist more avail-
able to the section will improve its already strong performance. The OIG team also
recommended that Embassy Vatican work out a program with Embassy Rome to
provide regular training assignments and exposure for the public affairs officer in
that Embassy’s public diplomacy section.




50       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Inspection of U.S. Mission to the
United Nations and Other International
Organizations, Geneva (ISP-I-08-51A)

The U.S. Mission to the United Nations and Other International Organizations has
worked diligently and with success to meet its priority strategic goal of promoting
the interests of the United States in multilateral UN organizations based in Geneva.
The achievement of some key policy goals in human rights, economic, and other
areas has been inhibited by unclear policy guidance and the lack of a single point of
contact in the Department corresponding to a country desk.

After a number of years of static budgets and increasing costs, the mission offered
buyouts to senior LE staff in order to meet a mandated budget rescission this fiscal
year. This action, coupled with several severances for cause, resulted in 12 vacant
positions in the management section, leaving it critically understaffed and in danger
of becoming unable to provide adequate services to its clients.

The arrangements for staffing and funding the mission’s conference services office
were not sustainable and were inherently inefficient. OIG recommended that this
strongly performing office, which supports 4,000 delegates per year, be reviewed and
regularized.



Bureau of Central and South Asian Affairs


Limited-Scope Inspection of Embassy
Ashgabat, Turkmenistan (ISP-I-08-46)

Embassy Ashgabat was a high-functioning mission successfully advancing U.S. policy
goals of developing cooperation with the new Turkmenistan Government in the
areas of energy, security, education, health, and economic and political reform, in-
cluding democracy and human rights. Turkmenistan had been without an accredited
U.S. ambassador for two years and was likely to remain so for another year. This was
perceived negatively by Turkmenistan and reduces U.S. influence.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   51
Embassy Ashgabat’s chancery was an extremely overcrowded, prefabricated build-
ing completed in 1995 and intended to accommodate a staff half the present size.
Several mission offices were located in three off-site locations. OBO has scheduled
Ashgabat for a new embassy compound in FY 2018. The Embassy needs to prepare
a rightsizing study to advance the process.

The Embassy was operating at peak capacity, with officers under some stress from
the heavy workload. The prospective infusion of $50 million dollars of U.S. coun-
ternarcotics assistance into Turkmenistan over the next two years, in addition to
other program activities, may require additional American and LE staff positions.
The Embassy had included the need for additional positions in its Mission Strategic
Plan.




Limited-Scope Inspection of Embassy
Tashkent, Uzbekistan (ISP-I-08-50)

Embassy Tashkent was successfully advancing U.S. policy objectives in the difficult
environment of Uzbekistan. Under the leadership of the Ambassador and the depu-
ty chief of mission, the mission was widening cooperation in areas welcomed by the
host government, such as border security and counternarcotics, while continuing to
advocate for progress in more sensitive areas such as democracy and human rights.

The inspection of resource management and management controls revealed no
identifiable weaknesses, and resources appeared well managed. The OIG team made
recommendations covering some administrative and information management is-
sues.




52       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Bureau of Western Hemisphere Affairs
	


Inspection of Embassy Ottawa, Canada, and
Constituent Posts (ISP-I-08-35A)

Interagency coordination, while complicated by the proliferation of U.S. federal
agencies represented in Canada, was robust and collegial, with one exception: the
Department of Homeland Security’s (DHS) Customs and Border Protection pre-
clearance sites across Canada, although under chief of mission control, continued
to operate as virtually autonomous entities, raising questions as to Embassy Ottawa’s
responsibility for security and internal control measures at these sites.

Funding for public diplomacy activities in Canada was so low that many opportuni-
ties to influence attitudes of key constituencies were not used. Public affairs officers
were making excellent use of target-of-opportunity speakers and events to fill fund-
ing gaps.

Consular sections across Canada had experienced growth in demand for visitor visa
services. The facilities in both Vancouver and Toronto will require physical altera-
tions to adapt to this increased workload. Demand for citizenship services will
increase as the requirement for all U.S. citizens residing in Canada to present a valid
citizenship document in order to cross the border comes into force.

The hundreds of new American direct-hire positions, primarily in the law enforce-
ment and security areas, approved for the mission over the last five years have not
been properly factored into the administrative support system. As a result, the
platform for provision of administrative support services, as well as some security
services, is inadequate to meet mandatory requirements.




Inspection of the U.S. Mission to the
International Civil Aviation Organization in
Montreal, Canada (ISP-I-08-44)

The U.S. Mission to the International Civil Aviation Organization (USICAO) was
a lean operation that had taken on increased importance following September 11,
2001, the first time that civil aircraft were used as weapons of mass destruction. This
Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   53
event emphasized the priority of enhanced global civil aviation security, along with
other priorities such as safety and environmental protection. OIG’s review of
USICAO found that the mission is effective in advancing U.S. civil aviation policy.

OIG had reservations on the adequacy of the budget to support the expanded focus
of the mission. OIG recommended that USICAO assess its budget requirements in
the next Mission Strategic Plan submission based on increased International Civil
Aviation Organization’s (ICAO) strategic objectives and U.S. operational responsibili-
ties.

On occasion, USICAO was not receiving instructions in a timely fashion. At times,
this was due to policy differences among offices or agencies in Washington. OIG
recommended that USICAO’s Washington desk in the Bureau of International Orga-
nizations be more active in brokering resolution to cross-cutting differences so that
instructions are clear and timely.

Due to the small size of the mission but the increased importance of policy issues, it
is imperative that the mission has continuity of leadership to maintain policy coordi-
nation and advocacy in ICAO. OIG recommended that the Bureau of International
Organizations closely monitor staffing assignments to avoid transferring the Ambas-
sador and DCM on the same cycle.




Inspection of Embassy Managua, Nicaragua
(ISP-I-08-54A)

Embassy Managua was highly successful in the execution of policy and appropriately
recalibrated the relationship with the Nicaraguan Government to reflect the harsher
new realities of dealing with Sandinista leader Ortega as an elected president. In
close coordination with the Bureau of Western Hemisphere Affairs, Embassy Mana-
gua effectively implemented Washington’s strategy of sustained engagement, along
with assistance, to allow the United States maximum influence in preserving democ-
racy and market-based economic development in Nicaragua.

Interagency relationships were smooth and productive. Embassy Managua’s robust
public diplomacy outreach ensured that official U.S. positions gained a hearing in
Nicaragua. The consular section was productive and efficient, but needed an addi-
tional officer and modification of the new consular waiting area. Embassy Managua,
with strong support from the Ambassador and deputy chief of mission, seamlessly
integrated its security program into the structure and operations of the newly con-
structed embassy.
54       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Inspection of Embassy La Paz, Bolivia
(ISP-I-08-56A)

The OIG team observed first hand that Embassy La Paz prepared well for, and the
regional security officer managed effectively, the internal defense of the chancery
compound during a recent violent demonstration.

Embassy La Paz recently submitted a rightsizing report identifying the staffing levels
required to support its Mission Strategic Plan goals. However, the report did not
address how the current difficulties in the bilateral relationship impede the ability
of several mission elements to accomplish their goals and how staff levels could be
adjusted to reflect these conditions. The Embassy had developed and implemented
effective programs of support for democracy and the rule of law in the face of
Bolivian Government criticism and attempted interference.

The Embassy’s effective counternarcotics programs aimed at interdiction, coca eradi-
cation, and alternative development were preserving the longstanding U.S. invest-
ment in counternarcotics efforts in the world’s third-largest coca producing country.
The Embassy was providing excellent reporting on the broad spectrum of political,
economic, and counternarcotics issues.

The International Cooperative Administrative Support Services service provider was
doing an excellent job of providing management support across virtually the entire
range of administrative operations at Embassy La Paz and the embassy branch of-
fices in Santa Cruz, Cochabamba, and Trinidad. Opportunities existed for greater
efficiency and economy by consolidating parallel management operations of the
Department of State and other agencies at post. The mission had made initial efforts
to consolidate housing and shipping operations, but further progress will require the
active engagement of the executive office and greater USAID cooperation.

A management and legal stalemate in Washington has kept Embassy Bolivia from
establishing an American presence post in Santa Cruz and has hampered outreach
into this increasingly economically and politically important region.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   55
Inspection of Embassy Asuncion, Paraguay
(ISP-I-08-57A)

Embassy Asuncion had moved aggressively to take advantage of Paraguay’s in-
creased readiness to act against corruption and transnational criminal organizations
by initiating coordinated programs to disrupt criminal activity, narcotics trafficking,
and possible financing of terrorist organizations. The country team and the inter-
agency law enforcement/counterterrorism working group were functioning collab-
oratively to advance these objectives under the leadership of the Ambassador and
deputy chief of mission. The Embassy had also supported Paraguay’s transition to
more democratic institutions and was establishing constructive relations with the op-
position leaders who won the country’s fairest election ever.

The Embassy had taken great public diplomacy advantage of Paraguayans’ general
agreement with U.S. foreign policy toward Paraguay to improve the image of the
United States in Paraguay. The Ambassador had been very effective in underlining
publicly, often using the Guarani national language, U.S. support for the Paraguayan
people, including private sector medical and scholarship contributions.

The Embassy had witnessed an explosive growth in Department of Defense person-
nel, focused principally on training Paraguayan Armed Forces in peacekeeping and
support for counterterrorism. Additional growth of U.S. military presence is not
desirable at this time, and the Embassy will need to continue assuring that U.S. armed
forces’ presence and activities in country do not overshadow other U.S. programs.
The Embassy was tracking closely proposed changes in personnel under Chief of
Mission authority and was adhering to National Security Decision Directive-38 pro-
cedures. However, Defense personnel under the authority of an area military com-
mander were receiving International Cooperative Administrative Support Services
for which they may not have been paying the appropriate amount. The Embassy
will need to restrict further personnel growth because of space constraints until the
completion of the new embassy compound.




56       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
BEST PRACTICES


Embassy Asuncion

Best Practice: Toll-Free Telephone Access to Voice of America News

Issue: Local media in less developed countries with marginal infrastructure still have
considerable impact on local perceptions of the United States and issues of interest.
These institutions, however, do not have the budget to purchase wire services, nor
do they have reliable Internet access. Providing them with accurate reporting from
Voice of America in a format that they can use easily helps the U.S. Government
reach local populations and provide accurate understanding of the United States and
its policies.

Response: The public diplomacy section developed a computerized system that
downloads Voice of America news, updating it hourly. These digital recordings are
then made accessible to journalists through a toll-free telephone line.

Result: Small local media outlets now have free access to up-to-date world news.
The public diplomacy section tracks several dozen calls per week, but implementing
the system in larger underdeveloped countries could provide greater results.




Embassy La Paz

Best Practice: Management of the Cell Phone and Telephone Database Program

Issue: The financial management office wanted a way to accurately account for all
calls made by mission employees. In addition to providing accountability for calls
made, the office wanted to provide mission employees official billing statements in a
matter of minutes.

Response: The Information Service Center created a database that could account
for cell phone and telephone calls made by mission employees. The database allows
users to identify and separate their nonofficial from their official calls. The database
also gives the financial management office the tools to accurately collect reimburse-
ment from those that have exceeded the permitted amount for personal calls.



Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   57
Result: The phone program has proven to be very effective and continues to oper-
ate efficiently. As a result, the total number of financial management office person-
hours was reduced by 99 percent, in addition to eliminating any possible loss in
government resources and funding. Several other posts worldwide have followed suit,
adopting the database to their program.




Embassy Ottawa

Best Practice: Inventory Control/Property Management

Issue: Maintaining a timely and accurate inventory of the personal property at the
Ambassador and DCM residences is a painstaking and laborious exercise.

Solution: The Embassy’s warehouse supervisor and the storekeeper have developed
a best practice for inventory control. Every piece of property at both residences has
been digitally pictured, along with its nonexpendable property application property
number, so that any item can be identified and traced, both by record book and by
computer.

Results: It is now much easier to complete an inventory or spot check on individual
items at either residence.



Best Practice: Ecology Fair/Waste Management

Issue: How to emphasize to the embassy community the cost savings of recycling
and the benefits of using more efficient lighting (such as compact fluorescent lights).

Solution: Embassy Ottawa has made the “greening” of mission operations a prior-
ity, and it is included as a goal in the management affairs strategic plan. The conser-
vation program began as a cost-saving measure several years ago and has blossomed
into a mission-wide commitment. Recycling bins are readily available throughout the
mission, including at consulates general, and their use is encouraged. In the embassy
building, which receives generous amounts of natural light in its interior atrium, only
one-half of the lights are turned on, with no apparent detriment.

In early March 2008, the general services and facilities maintenance sections spon-
sored an ecology fair in the embassy auditorium. The fair was the culmination of a
major effort to track embassy-generated waste, in which the post actually measured
the pounds of paper, plastic, and other recyclables that were thrown out unsorted

 58      Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
and found that 39 percent of the material sent to the landfill was potentially recycla-
ble. Booths displayed graphically the break out of the “waste audit” and what could
have been recycled. Other booths had examples of regular light bulbs and compact
fluorescent light bulbs, which are 75 percent more efficient, and the differences in
brightness and energy usage. Again, graphs were used to portray how much could be
saved in energy costs if the embassy buildings and employee residences were fitted
with compact florescent light bulbs. (Mission Canada families’ savings could be as
high as $85,000.) Led by the Ambassador, many embassy employees attended the
fair.

Results: The embassy community is now better informed on the benefits of (and
hopefully recruited into adopting) recycling and utilizing compact florescent lighting.



Embassy Tokyo

Best Practice: Use of Mobile Phone Technology to Reach Younger Audiences

Issue: How to most effectively provide younger Japanese information about the
United States, the American Embassy, and public program opportunities in order to
increase contacts with this important audience.

Response: The Information Resource Center has created a cell phone Internet
site that users can access by scanning a two-dimensional bar code with their mobile
phones. The site offers information on visas, the American Embassy, frequently
asked questions, and links to material more easily accessed online. This site also
enables the American centers throughout Japan to advertise upcoming programs
among younger audiences. The Embassy and consulates have been actively promot-
ing this service with business cards providing the bar code.

Result: The site has been in operation for approximately one year and has been
steadily gaining use. In February 2008, there were over 12,000 page views. Tokyo’s
use of mobile-phone technology to reach younger audiences is an approach that may
be adaptable in other countries with a strong electronic infrastructure.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   59
Best Practice: Telephone Information System

Issue: Embassy Tokyo has a large telephone system that is used at the Embassy and
the housing compound for both business and personal calls. Keeping track of the
billing from the computerized telephone system and the variety of local telephone
companies that are used is a complicated task.

Response: Embassy Tokyo’s telephone information system is a locally developed
telephone billing application that separately bills official and personal calls. The ap-
plication compares the data from the Embassy’s telephone usage log against the data
received from the various Japanese telephone companies to create the bills. Users
must dial 8 before making official calls and 9 before making personal calls. The indi-
vidual section bills are printed and distributed in hard copy, and the personal bills are
distributed electronically by e-mail.

Result: Prior to automating this billing process, two employees worked full time on
telephone billing. This job can now be done in a small fraction of the original time
required and requires only part-time use of one staff position. The telephone infor-
mation system also provides a comprehensive telephone directory accessible via the
Embassy’s OpenNet. This service allows callers to find office extensions, cell phone
numbers, and home telephone numbers.




Best Practice: Bottom-Up Approach to Rightsizing

Best Practice: Utilize a private-sector “bottom-up” approach to maximize the ef-
ficiency of and rightsize Mission Tokyo operations.

Issue: How best to right-size Mission Tokyo by identifying better ways to operate
and identify positions no longer required.

Response: By employing the methodology used in the private sector that concen-
trates on increasing productivity and eliminating waste and duplication, all mission
entities were analyzed. The need for and value of every person and position in every
section was questioned and justified. Employees were asked to determine if there
was a better way to operate. This approach enabled management to pinpoint duplica-
tion and waste.

Result: Potential savings are in the millions. A significant number of both American
and LE staff positions were either eliminated or referred to the Department to be
abolished or reprogrammed.


60       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
			                        INVESTIGATIONS




CONFLICT OF INTEREST

OIG conducted a joint investigation with the Bureau of Diplomatic Security (DS)
concerning a Consular Associate at an African post who accepted illegal gratuities in
exchange for issuing visas. After lengthy plea negotiations with the Department of
Justice, the Consular Associate agreed on May 13, 2008, to plead guilty to two counts
of violating the conflict-of-interest statutes. As a result of the plea, the Consular
Associate was placed on one year probation and agreed to restitution to the govern-
ment in the amount of $505,115.


OIG conducted an investigation of a senior Department manager who accepted il-
legal gratuities from Department contractors, including skybox tickets to a National
Football League (NFL) game worth over $400 a piece, and also pressured subcon-
tractors to hire friends and members of his church. In addition, the senior manager
took trips with a subordinate at government expense for the purpose of engaging in
an extramarital affair with the subordinate. The subordinate also accepted illegal gra-
tuities, including the skybox NFL tickets, from Department contractors. The senior
manager also threatened to terminate a contract if the contractor did not give a raise
to a personal friend. When interviewed, both employees admitted to all of the allega-
tions. On May 21, 2008, HR proposed termination for both employees.



OIG conducted an investigation involving a U.S. Ambassador who violated the Eth-
ics Reform Act by failing to report a substantial amount of earned outside income.
OIG referred the matter to the Department of Justice, Civil Division. On June 17,
2008, the Ambassador signed a Settlement Agreement wherein he agreed to pay
$300,000 to the U.S. Treasury to resolve the matter involving his improper receipt of
outside income. As part of the settlement, the United States agreed to take no fur-
ther action against the Ambassador. The agreement also stipulated that the Ambassa-
dor would neither admit nor deny the validity of any of the claims against him.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   61
THREATS AND CIVIL RIGHTS VIOLATION

OIG conducted a joint investiga-
tion with the Federal Bureau of              Investigator Receives FBI Award
Investigation (FBI) of a Department
                                            On August 11, 2008, Special Agent Stan
employee who made several threats
                                            Becton received the FBI’s Director’s Award
via telephone and electronic mail
                                            for outstanding investigative work. The
to an Arab-American organization.           Director’s Award was presented to Special
When interviewed by FBI and OIG             Agent Becton for his diligent efforts work-
agents, the employee admitted to            ing with the FBI in conducting a hate crime
making the threatening communica-           case. The case resulted in the subject, a
tions. The subject was indicted for         former Department employee, being con-
making threatening communications           victed and sentenced to a year in prison.
and subsequently pleaded guilty on
two counts related to the violations.
On July 11, 2008, the subject was sentenced in U.S. District Court for the District of
Columbia to 12 months and one day on each charge, to be served concurrently. The
subject was also ordered to pay a $10,000 fine and $125 special assessment to the
court. Upon completion of incarceration, the subject will be placed on 36 months of
probation. The subject retired from the Department prior to his indictment and was,
therefore, not subject to disciplinary action. (07-002)



EMBEZZLEMENT

OIG conducted an investigation of a Foreign Service officer (FSO) who embezzled
approximately $47,000 by issuing a contract to his brother for which the Department
did not receive any work. The FSO resigned from the Department, and both broth-
ers were indicted for their roles in the scheme. On May 19, 2008, the former FSO
pleaded guilty to a one-count charge of mail fraud and a one-count charge of money
laundering.

On June 23, 2008, the Federal trial of the brother commenced in the Eastern District
of Tennessee. On June 25, 2008, the jury acquitted the brother on charges of con-
spiracy to defraud the U.S. Government and conspiracy to commit money launder-
ing. During the trial, the former FSO took the stand as a witness for the defense and
committed perjury by lying under oath about both his and his brother’s involvement
in the fraud. Sentencing for the former FSO is scheduled for October 2008. (04-027)



 62      Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
VISA FRAUD

OIG conducted a joint investigation based upon a referral from the Bureau of Im-
migration and Customs Enforcement (ICE) that an immigration attorney based in
Arlington was involved in visa fraud by filing fraudulent immigration-related pa-
perwork on behalf of some of her clients. The joint investigation with ICE, FBI,
and Department of Labor OIG determined that the attorney was falsifying asylum
claims for her clients by taking their original claims and translating them into Eng-
lish, incorporating false information so that they would qualify.

On April 15, 2008, the attorney pleaded guilty to one count of fraud related to visas,
permits, and other immigration documents. On July 11, 2008, the attorney was sen-
tenced to two month’s incarceration, to be followed by a two-year supervised release,
and was ordered to forfeit $60,000. (06-014)



EMPLOYEE MISCONDUCT

OIG conducted an investigation of a Department employee who forged the name
of her supervisor on time-and-attendance documents and falsely claimed overtime
payments. When interviewed, the subject admitted to making the falsifications.
On April 8, 2008, OIG was notified by HR that the employee had served a 10-day
suspension from March 24 through April 3, 2008. On May 30, 2008, the Bureau of
Resource Management notified OIG that the employee had repaid the Department a
total of $840 for overtime payments received for time that she did not work. (07-
036)


OIG conducted an investigation of a Department contract employee who improp-
erly accessed the Department’s Passport Information Electronic Records System
(PIERS) by looking up the passport files of presidential candidates, as well as other
individuals, for nonofficial purposes. The investigation determined that the contract
employee electronically accessed through PIERS approximately 200 different pass-
port applications without authorization. The contract employee was terminated from
his assignment with the contractor. On September 22, 2008, the contract employee
pleaded guilty to a one-count criminal information in the U.S. District Court for the
District of Columbia to Unauthorized Computer Access in violation of 18 U.S.C.
Section 1030(a)(2)(B). (08-014)




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   63
FOLLOW-UP ACTIONS 



VISA FRAUD

A joint investigation with the Department of Labor OIG, the Internal Revenue
Service, the FBI, and the DHS OIG revealed that an employment and immigration
services company based in Falls Church, Virginia, falsified employment-based visa
applications on behalf of its employer clients by claiming the employers had an ex-
isting need for skilled worker that could not be filled from the local job pool of U.S.
workers.

The investigation determined that false certifications were used to secure visas for
foreign nationals to enter the United States. A search warrant was executed at four
locations, including the offices of the employment and immigration services compa-
ny. The investigation revealed the company filed at least 1,400 fraudulent visa appli-
cations with the Department as part of this scheme. Illegal immigrants were charged
as much as $120,000 each to obtain visas under false pretenses.

A total of seven individuals were indicted or agreed to plead guilty in U.S. District
Court, Eastern District of Virginia, on charges of conspiracy to commit immigra-
tion fraud, conspiracy to encourage an alien to unlawfully enter the United States,
money laundering and misprision of a felony. On May 20, 2005, one defendant
was sentenced to two years’ imprisonment; two years’ supervised release and fined
$1,500. On August 12, 2005, another defendant was sentenced to two years impris-
onment, two years’ probation, and fined $750. On October 21, 2005, one defendant
was sentenced to 70 months’ imprisonment. On November 18, 2005, another defen-
dant was sentenced to four months’ imprisonment, six months’ community confine-
ment, three years’ supervised release, and was fined $7,000. On Dec-
ember 2, 2005, the remaining three defendants were sentenced. One received 44
months’ imprisonment and three years’ supervised released. Another received 18
months’ imprisonment and three years’ supervised released. The third received 15
months’ imprisonment and two years’ supervised release. The subjects also were
required to forfeit over $3.2 million dollars in proceeds from the scheme.

At the time of the prosecutions, one of the co-defendants fled to China to escape
punishment and was declared a fugitive. In early 2008, he was apprehended by
Chinese authorities and extradited to the United States. On May 9, 2008, he pleaded
guilty an indictment charging him with conspiracy to commit immigration fraud and


64       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
making false statements. On July 25, 2008, he was sentenced to 18 months’ incarcera-
tion, to be followed by three years of supervised release. (See OIG Semiannual Report,
October 1, 2005, to March 31, 2006, pp 50-51) (05-019)



OIG conducted a joint investigation with the U.S. Department of Labor, OIG;
DHS’s Bureau of Immigration and Customs Enforcement; and the Department’s
Bureau of Diplomatic Security, of a construction company allegedly committing
employment-based visa fraud by filing labor certifications for workers they did not
intend to employ. The investigation determined that the company filed more than 65
labor certifications for foreign workers, many of which never worked for the com-
pany and paid in excess of $20,000 for their labor certifications. The president of
the construction company pleaded guilty to a one-count criminal information charg-
ing him with conspiracy to commit visa/immigration fraud and making false state-
ments. The company president also agreed to an order of forfeiture in the amount
of $250,000.

On September 12, 2007, the company vice president and another co-conspirator
were indicted on seven counts relating to the scheme. On November 8, 2007, the
company president was sentenced to 21 months’ incarceration, to be followed by two
years of supervised release. On January 23, 2008, the other co-conspirators pleaded
guilty to one count each. The company vice president also agreed to a forfeiture or-
der in the amount of $300,000. On April 11, 2008, one co-defendant was sentenced
to 33 months’ incarceration, to be followed by three years supervised release. He
was also ordered to comply with his consent order of forfeiture in the amount of
$300,000. On April 18, 2008, the other co-defendant was sentenced to 24 months’
supervised release, ordered to perform 50 hours of community service, and fined
$5,000. (See OIG Semiannual Report, October 1, 2007, to March 31, 2008, pp 51) (05-046)




PASSPORT FRAUD

OIG conducted an investigation of a German national who assumed the identity of
a deceased infant to obtain a U.S. Passport. When interviewed by OIG the subject
related the story of how she and her German national husband had come to the
United States in 1975 to work on a cruise line. She said her ex-husband obtained the
identity documents of two deceased infants of American citizens for them to use.
Both she and her ex-husband established American citizenship using the false docu-
ments and then obtained U.S. passports.

Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   65
 On August 23, 2007, the subject was indicted on two counts for making false state-
 ments on her application for a U.S. passport and application for citizenship. OIG
 agents arrested her the same day. On December 7, 2007, the subject pleaded guilty
 to one count of the indictment. On February 13, 2008, she was sentenced to time
 served and had her U.S. citizenship revoked.

 As a result of the information provided by the subject, on February 21, 2008, her
 ex-husband was indicted on five counts of using a passport secured by false means.
 OIG agents arrested him the next day. On April 4, 2008, the ex-husband pleaded
 guilty to one count of 18 USC § 1542 - for knowingly and willfully using a U.S.
 passport to gain entry into the United States, and that such passport was secured by
 reason of false statement. On April 21, 2008, the husband was sentenced to “time
 served,” ordered to pay a $100 court assessment, and was surrendered to the custody
 of the U.S. Immigration and Customs Enforcement for deportation proceedings. (See
 OIG Semiannual Report, October 1, 2007 to March 31, 2008, pp 52-53) (05-051 & 07-034)




                                       All Other, 10%
                                                   Conflict of
                     Passport &                   Interest, 6%
                     Visa Fraud,
                         9%
                                                        Contract &
                                                       Procurement
                                                       Fraud, 11%

                     Employee
                    Misconduct,                         False
                       43%                           Statements
                                                     and Claims,
                                                        11%

                                          Embezzlement
                                           & Theft, 10%



 Hotline
 Referral To Other Offices for Action 200

 Held for Action Within OIG                  57

 No Action Necessary                       142

 Total Complaints Received                 399


66     Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES




     Preliminary Inquiries
        Opened                                                              22
        Closed                                                              26

     Investigations
        Opened                                                             109
        Closed                                                              35
        Pending (9/30/08)                                                  123

     Criminal Actions
        Referrals for Prosecution                                          7
        Indictments/Informations                                           2
        Convictions                                                        6
        Sentencings (Months Imprisonment)                                 47
        Sentencings (Months Probation)                                   122
        Declinations                                                       3

     Civil Actions
        Civil Referrals                                                    1
        Civil Judgments                                                    1

     Administrative Referrals
       Referrals for Personnel Action                                      2
       Suitability Referrals to DS                                         5

     Administrative Actions
       Removals                                                            3
       Suspensions                                                         0
       Reprimand/Admonishments                                             0
       Debarment Actions                                                   0

     Monetary Recoveries
       Criminal Fines/Recoveries                                  $580,215
       Civil Recoveries                                           $300,000
       Administrative Recoveries                                  $    840
     Total Investigative Recoveries                               $881,055

      Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   67
68   Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
                     APPENDIX 2: REPORTS ISSUED


 AUD/CG-08-22	            Independent Accountants’ Report on the Application of Agreed-
                          Upon Procedures on Indirect Cost Rates Proposed by American
                          Refugee Committee, Inc.
 AUD/CG-08-23	            Independent Accountants’ Report on the Application of Agreed-
                          Upon Procedures on Indirect Cost Rates Proposed by Council on
                          International Educational Exchange, Inc.
 AUD/CG-08-28	            Independent Accountants’ Report on the Application of Agreed-
                          Upon Procedures on Final Buyout Claim by Enviro-Management
                          & Research, Inc.
 AUD/CG-08-30	            Independent Accountant’s Report on the Application of Agreed-
                          Upon Procedures on the Indirect Cost Rate Proposed by Church
                          World Service, Inc.
 AUD/CG-08-31	            Independent Accountants’ Report on the Application of Agreed-
                          Upon Procedures on the Indirect Cost Rates Proposed by Project
                          Harmony, Inc.
 AUD/CG-08-32	            Independent Accountants’ Report on the Application of Agreed-
                          Upon Procedures on Indirect Cost Rates Proposed by Nacel Open
                          Door, Inc.
 AUD/CG-08-34	            Independent Accountants’ Report on the Application of Agreed-
                          Upon Procedures on Indirect Cost Rates Proposed by The
                          Graduate School, USDA
 AUD/FM-08-04	            Management Letter Related to the Audit of the Department of
                          State’s 2007 & 2006 Financial Statements
 AUD/FM-08-24	            Independent Auditor’s Report on the International Boundary &
                          Water Commission, United States & Mexico, U.S. Section, 2007
                          & 2006 Financial Statements
 AUD/FM-08-25	            Management Letter Related to the Audit of the International
                          Boundary & Water Commission, United States & Mexico, U.S.
                          Section, 2007 &2006 Financial Statements
 AUD/FM-08-26	            Audit Report on the Foreign Service Retirement & Disability
                          Fund 2007, 2006, & 2005 Financial Statements
 AUD/FM-08-27	            Management Letter Related to the Audit of the Foreign Service
                          Retirement & Disability Fund 2007, 2006, & 2005 Financial
                          Statements
 AUD/FM-08-38	            Independent Accountants’ Report on the Application of
                          Agreed-Upon Procedures: Retirement, Health Benefits, and
                          Life Insurance Withholdings/Contributions and Supplemental
                          Semiannual Headcount Report Submitted to the Office of
                          Personnel Management
 AUD/IP-08-29	            Review of Controls & Notification for Access to Passport Records
                          in the Department of State’s Information Electronic Records
                          System (PIERS)
 ISP-I-08-10A	            Inspection of Embassy Abidjan, Cote d’Ivoire
 ISP-I-08-25A	            Inspection of Embassy Abuja & Consulate General Lagos,
                          Nigeria
Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   69
     ISP-I-08-26             Limited-Scope Review of Department of State Counterterrorism
                             Designation & Vetting Procedures
     ISP-I-08-27             Limited-Scope Inspection of Embassy Bratislava, Slovakia

     ISP-I-08-28             Limited-Scope Inspection of Embassy Cotonou, Benin

     ISP-I-08-31             Limited-Scope Inspection of Embassy Libreville, Gabon

     ISP-I-08-32             Limited-Scope Inspection of Embassy Lome, Togo

     ISP-I-08-33             Limited-Scope Inspection of Embassy Malabo, Equatorial Guinea

     ISP-I-08-34             Inspection of the Bureau of Overseas Buildings Operations

     ISP-I-08-35A            Inspection of Embassy Ottawa, Canada, and Constituent Posts

     ISP-I-08-36A            Inspection of Embassy Rangoon, Burma

     ISP-I-08-38             Limited-Scope Inspection of Embassy Tallinn, Estonia

     ISP-I-08-39A            Inspection of Embassy Tokyo, Japan & Constituent Posts

     ISP-I-08-40             Limited-Scope Inspection of the U.S. Mission to the United
                             Nations Agencies in Rome
     ISP-I-08-41             Limited-Scope Inspection of Embassy Vatican City, The Holy See

     ISP-I-08-42             Limited-Scope Inspection of Embassy Vilnius, Lithuania

     ISP-I-08-43             Inspection of Embassy Windhoek, Namibia
     ISP-I-08-44             Inspection of the U.S. Mission to the International Civil Aviation
                             Organization in Montreal, Canada
     ISP-I-08-46             Limited-Scope Inspection of Embassy Ashgabat, Turkmenistan
     ISP-I-08-49A            Limited-Scope Inspection of Embassy Port Louis, Mauritius

     ISP-I-08-50             Limited-Scope Inspection of Embassy Tashkent, Uzbekistan

     ISP-I-08-51A            Inspection of U.S. Mission to the United Nations and Other
                             International Organizations, Geneva, Switzerland
     ISP-I-08-54A            Inspection of Embassy Managua, Nicaragua
     ISP-I-08-56A            Inspection of Embassy La Paz, Bolivia
     ISP-I-08-57A            Inspection of Embassy Asuncion, Paraguay

     MERO-IQO-08-01          Status of Iraqi Special Immigrant Visa Programs

     MERO-IQO-08-02          Status of U.S. Refugee Resettlement Processing for Iraqi
                             Nationals
     SIA-08-04               Review of the Process for Sharing Department Cables via the
                             Net-Centric Diplomacy (NCD) Program
     SIA-08-05               Review of Department’s Use of Its Defense Export Licensing
                             Watchlist in the Acquisition Process

70       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Classified Reports Issued:
	
AUD/IT-08-33		       Review of the Information Security Program for Sensitive
                     Compartmented Information Systems at the Department of
                     State
ISP-S-08-10A		       Classified Annex to the Inspection of Embassy Abidjan, Cote
                     d’Ivoire
ISP-S-08-25A		       Classified Annex to the Inspection of Embassy Abuja and
                     Consulate General Lagos, Nigeria
ISP-S-08-35A		       Classified Annex to the Inspection of Embassy Ottawa and
                     Constituent Post, Canada
ISP-S-08-36A		       Classified Annex to the Inspection of Embassy Rangoon,
                     Burma
ISP-S-08-39A		       Classified Annex to the Inspection of Embassy Tokyo, Japan,
                     and Constituent Posts
ISP-S-08-49A		       Classified Annex to the Inspection of Embassy Port Louis,
                     Mauritius
ISP-S-08-51A		       Classified Annex to the Inspection of U.S. Mission to the
                     United Nations and Other International Organizations, Ge-
                     neva, Switzerland
ISP-S-08-54A		       Classified Annex to the Inspection of Embassy Managua,
                     Nicaragua
ISP-S-08-56A		       Classified Annex to the Inspection of Embassy La Paz, Bo-
                     livia
ISP-S-08-57A		       Classified Annex to the Inspection of Embassy Asuncion,
                     Paraguay




       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   71
72   Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES



                             Table 1

             INSPECTOR GENERAL ISSUED AUDIT REPORTS

                     WITH QUESTIONED COSTS

                  Type of Report            Number of    Question Costs      Unsupported Costs
                                             Reports

      A.   For which no management
           decision has been made by the
           commencement of the reporting            9          $8,396,000               $2,121,000
           period

      B.   Which were issued during the
           reporting period                         3          $5,816,000               $5,024,000

           Subtotals (A + B)                       12         $14,212,000               $7,145,000

      C.   For which a management
           decision was made during
           the reporting period based                             $34,000
           on formal administrative or
           judicial appeal
                                                    2             $34,000                      $0
           (i) dollar value of disallowed
           costs
           (ii) dollar value of costs not                              $0
           disallowed
      D.
           For which no management
           decision has been made by the
                                                   10         $14,178,000              $7,145,000
           end of the reporting period


           Reports for which no
           management decision was
                                                    5              $1,855                  $1,457
           made within six months of
           issuance




     Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   73
                          Table 2

        INSPECTOR GENERAL ISSUED AUDIT REPORTS

           WITH RECOMMENDATIONS THAT FUNDS 

                  BE PUT TO BETTER USE



                     Type of Report                   Number of Reports         Dollar Value
                                                                              (in Thousands)
A.   For which no management decision has been                           0                  $0
     made by the commencement of the reporting
     period

B.   Which were issued during the reporting period                       0                  $0

     Subtotals (A + B)                                                   0                  $0
C.   For which a management decision was made
     during the reporting period
                                                                                            $0
                                                                         0
     (i) dollar value of recommendations that were
     agreed to by management
     -based on proposed management action                                0
                                                                                            $0

     -based on proposed legislative action
                                                                         0
                                                                                            $0
     (ii) dollar value of recommendations that were
     not agreed to by management

D.   For which no management decision has been                           0                  $0
     made by the end of the reporting period

     Reports for which no management decision was                        0                  $0
     made within six months of issuance




74        Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS




    Previously Reported Significant Audit Recommendations
    Pending Final Action


     Report                   Rec.      Report Title                                                        First
     Number                   No.       Recommendation Summary                                             Reported
     SIO-A-02-55		                      Memorandum Report Special Review of Main State Security        9/02
                              2		       OIG recommended the Department install interior hard
                                        lines that provide 15 minute forced-entry, ballistic-resistant
                                        protection at every Main State lobby. These hard lines
                                        should be supplemented with 15-minute forced entry, ballis-
                                        tic-resistance guard booths to ensure all passage through the
                                        hard line is controlled.

     AUD/FM-05-06		                     Assessment of the Certification and Accreditation, Change Manage- 11/04
                                        ment, and Patch Management Process
                              1		       OIG recommended the Bureau of Information Resource
                                        Management revise the security test and evaluation of the
                                        certification and accreditation process to include a complete
                                        vulnerability scan of the systems being assessed.

     IT-I-06-03		                       Review of the Information Security Program at the Department of    10/06
                                        State
                              1		       OIG recommended the Chief Information Officer verify
                                        that information security roles and responsibilities for the
                                        Department are clearly defined, to include, at a minimum,
                                        compliance with the Federal Information Security Manage-
                                        ment Act (FISMA).
                             2		        OIG recommended the Chief Information Officer develop
                                        and implement an agency-wide information security pro-
                                        gram plan based upon and supported by clearly defined
                                        information security roles and responsibilities.




     Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   75
                   3		          OIG recommended the Chief Information Officer verify
                                that all information technology assets for the Department
                                are reported and accounted for within a comprehensive
                                inventory process.
                   4		          OIG recommended the Chief Information Officer imple-
                                ment parameters (as defined in the Federal Information
                                Security Management Act) to be used for identifying all
                                contractor systems to be included in the Department’s
                                inventory.
                   6		          OIG recommended the Chief Information Officer estab-
                                lish a comprehensive plan for the Information Systems
                                Security Officer program that includes consistent prioritiza-
                                tion of duties and training.
                   7		          OIG recommended the Chief Information Officer develop
                                a process for determining an accurate total number of De-
                                partment employees required to take information security
                                awareness training.
                   8		          OIG recommended that the Chief Information Officer
                                assign one entity with responsibility to manage the certifica-
                                tion and accreditation process.
                   9		          OIG recommended the Chief Information Officer revise
                                policies to ensure that information technology security
                                findings and recommendations from external and internal
                                reviews are being addressed in the plans of action and mile-
                                stones process.




76   Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
 AUD/IQO-07-20           Rec. No.     Review of DynCorp International, LLC, Contract Number S-
                                      LMAQM-04-C-0030, Task Order 0338, for the Iraqi Police
                                      Training Program Support (Joint audit with the Special Inspector
                         1            General for Iraq Reconstruction)

                                      OIG recommended the Bureau of International Narcotics
                                      and Law Enforcement Affairs (INL) present a plan to the
                                      U.S. Ambassador to Iraq for review and approval on the use
                                      of residential camp to house police trainers, as originally
                                      intended, or make arrangements to dispose of the camp.
                                      Because of the lengthy consideration already given to decid-
                                      ing what to do with the trailers, this action should be taken
                         2
           within the next 60 days.

                                      OIG recommended the Office of Acquisitions Manage-
                                      ment seek reimbursement from DynCorp of the improperly
                                      authorized payment of $4.2 million that represents contrac-
                                      tually unauthorized work directed by the Iraqi Ministry of
                                      Interior. This work included the relocation of the residential
                                      camp, the manufacture of additional VIP trailers, and the
                                      construction of an Olympic-size swimming pool.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008       77
AUD/SI-07-27        Rec. No.     Audit of Emergency Preparedness at the Washington Metropolitan            3/07
                                 Facilities of the Department of State

                    2            OIG recommended the Bureau of Administration ensure
                                 the Office of Emergency Management’s Planning and Pre-
                                 paredness Division has sufficient staffing to finalize 6 FAM
                                 400, Office of Emergency Management Program, and the
                                 proposed 6 FAH-1 H-100, Domestic Emergency Hand-
                                 book, and ensure the emergency preparedness policies and
                                 procedures contained in these manuals are implemented
                                 and enforced in a timely manner.

                    3            OIG recommended the Secretary’s Office of the Coordina-
                                 tor for Counterterrorism dedicate sufficient staff to finalize
                                 the National Incident Management System and to correct
                                 the inaccuracies in the National Response Plan, and submit
                                 the information to the Department of Homeland Security
                                 (DHS) in a timely manner.




78    Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
 AUD/CG-07-25           Rec. No.     Review of the Institute of International Education’s Indirect Cost   4/07
                                     Rates for Fiscal Years 2002-05
                        1            OIG recommended the Bureau of Educational and Cultural
                                     Affairs grants officer require the Institute of International
                                     Education to consistently account for severance pay for
                                     FYs 2002-05 as indirect or direct costs, identify overpay-
                                     ments of severance and other benefits related to the sever-
                                     ance pay, reimburse the Department for unallowable sever-
                                     ance pay and benefits, reduce the fringe benefits pool by the
                                     overpayments, and recompute the fringe benefits pool for
                                     allocation to the other cost pools.
                        2            OIG recommended the Bureau of Educational and Cultural
                                     Affairs grants officer require the Institute of International
                                     Education to reimburse the Department for bond and loan
                                     interest, personal living, and other indirect costs classified
                                     as unallowable; reduce the indirect cost pools by the unal-
                                     lowable costs; and recompute the indirect cost rates in the
                                     appropriate pools.

 AUD/CG-07-29                        Independent Accountants’ Report on the Application of Agreed-Up-     6/07
                                     on Procedures on Costs Claimed by Atlantic Corridor U.S.A., Inc.,
                                     Under Department of State Department of State Grants
                        1            OIG recommended the Bureau of Educational and Cultural
                                     Affairs require Atlantic Corridor to refund the Department
                                     the $226,705 in excess drawdowns related to Department
                                     grants and prohibit any future drawdowns until the funds
                                     are repaid and the grantee has established controls limiting
                                     any future requests of grant funds to the minimum amount
                                     necessary to cover allowable costs.
                        2            OIG recommended the Bureau of Educational and Cultural
                                     Affairs require Atlantic Corridor to refund the Department
                                     for $45,361 of unallowable costs related to the grants and
                                     to provide information so that the Department can make
                                     an appropriate determination on the unsupported costs of
                                     $97,388.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   79
AUD/IP-07-47        Rec. No.     Return-to-Work: An Important Program for the Department of                8/07
                                 State to Implement
                    1            OIG recommended the Bureau of Human Resources devel-
                                 op and implement a return-to-work program for workers’
                                 compensation beneficiaries considering the best proactive
                                 elements discussed in this report.


AUD/CG-07-37                     Independent Accountants’ Report on the Application of Agreed-             9/07
                                 Upon Procedures on Costs Claimed by Meridian International Center
                                 Under Department of State Cooperative Agreements
                    1            OIG recommended the Bureau of Educational and Cul-
                                 tural Affairs (1) determine whether the Center’s use of the
                                 forgone opportunity costs concerning the Center’s confer-
                                 ence facilities constitutes an appropriate cost-share amount
                                 under the cooperative agreement, and (2) following this
                                 determination, as appropriate, require the Center to pro-
                                 vide supporting documentation for the claimed cost-share
                                 amounts or an alternative cost-sharing proposal.


AUD/IQO-07-48                    Accounting for Government-Owned Personal Property Held by                 9/07
                                 Selected Contractors in Afghanistan
                    1            OIG recommended the Department develop and imple-
                                 ment policies and procedures to achieve compliance with
                                 Federal Acquisition Regulation requirements for reviewing a
                                 contractor’s property control system.
                    2            OIG recommended the Department take actions to ad-
                                 dress the $2.9 million in unallowable costs identified in this
                                 report, including reconciling contract requirements to the
                                 property acquired and invoiced by the contractors for which
                                 they were reimbursed and determine whether property in
                                 excess of amounts specified in the contract or task order
                                 was required to accomplish contract objectives; document-
                                 ing the reconciliation and determination, use them as
                                 the basis for approving the costs of any excess property
                                 deemed allowable, and issue a modification to the task order
                                 indicating the approval; and resolving any unallowable costs
                                 associated with property that was determined to be unnec-
                                 essary to the accomplishment of contract objectives.



80    Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
                        3		          OIG recommended the Department take the following
                                     steps to address the $25.5 million in unsupported costs
                                     identified in this report: reconcile the property acquired and
                                     invoiced by the contractors for which they were reimbursed
                                     to the contractor’s property lists by obtaining and reviewing
                                     contractor documentation detailing the types and quanti-
                                     ties of property acquired; determine whether the property
                                     was needed and consistent with contract requirements;
                                     and resolve any unsupported allowable costs associated
                                     with property that could not be supported with adequate
                                     documentation or was determined to be unnecessary to the
                                     accomplishment of contract objectives.
                        4		          OIG recommended the Department develop and imple-
                                     ment a process for reviewing the capitalized asset reports
                                     submitted by contractors to verify that reports are received
                                     for all contracts with contractor-held property and reconcil-
                                     ing, at least annually, the capitalized asset reports submitted
                                     by contractors to the contractors’ property lists to verify
                                     that the capitalized asset reports are complete and accurate.

                        5		          OIG recommended the Department evaluate its current
                                     structure for monitoring government property held by con-
                                     tractors, assess the benefits of creating a property adminis-
                                     trator function, and use this evaluation to clearly define the
                                     authority and responsibility for property oversight for each
                                     member of its contract administration team.
                        6		          OIG recommended the Department develop and imple-
                                     ment policies and procedures for monitoring government
                                     property held by contractors.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   81
Previously Reported Significant Inspections
Recommendations Pending Final Action

Report           Rec.   Report Title                                                                  First
Number           No.    Recommendation Summary                                                      Reported

ISP-C-07-04             Compliance Follow-up Review of the Inspection of the USIBWC                    10/06
                  1     OIG recommended the Bureau of Western Hemisphere Affairs, in
                        coordination with the Bureau of Legislative Affairs, the Office of the
                        Legal Adviser, and the Bureau of Human Resources, seek legislation
                        making the U.S. Section of the International Boundary and Water
                        Commission an entity of the Department of State.

ISP-I-07-16	            Inspection of the Bureau of Human Resources (Phase I)                           5/07
                 13	    The Bureau of Human Resources, in coordination with the Foreign
                        Service Institute, should establish an Executive Advisory Board
                        to provide oversight of the Career Entry Program and include
                        representatives from the Office of Civil Service Personnel Management
                        (HR/CSP); Office of Recruitment, Examination and Employment (HR/
                        REE); Foreign Service Institute (FSI); and an individual from outside the
                        Department. (Action: HR, in coordination with FSI)
                  33	   The Bureau of Human Resources should, in coordination with the
                        Bureau of Resource Management, establish a global savings mechanism
                        to supplement the locally employed staff’s retirement plan. (Action:
                        HR, in coordination with RM)

ISP-I-07-21	            Inspection of the Bureau of Administration, Office of Logistics                 5/07
                        Operations and Office of Program Management and Policy
                  10	   OIG recommended the Bureau of Resource Management, in coordination
                        with the Bureau of Administration, establish procedures in the Foreign
                        Affairs Manual to require that all bureau and office heads, and chiefs
                        of mission assure in their management controls certifications that an
                        inventory was conducted and reconciled with property records and that
                        the results were submitted.
                  13	   OIG recommended the Bureau of Administration revise regulations to
                        eliminate the criteria allowing the authorization of adjustments when
                        shortages total less than one percent of the stated inventory value
                        and, when a shortage exists, instead require all domestic and overseas
                        entities to submit either the applicable Property Survey Report or
                        Property Disposal Authorization and Survey Report with the inventory
                        certification.




82       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
                     22	   OIG recommended the Bureau of Resource Management, in coordination
                           with the Bureau of Administration, establish and implement a system
                           to pay the U.S. Postal Service and bill and collect reimbursement from
                           other agencies for postal service provided to posts being converted to
                           Department-managed postal operations.
                     27	   OIG recommended the Bureau of Human Resources, in coordination
                           with the Bureau of Administration, establish a logistics management
                           function skill code and a logistics certification program for logistics
                           professionals worldwide.




Revised Management Decisions

None to report.




Significant Management Success In Resolving
and Implementing Recommendations


 Report           Rec.     Report Title
 Number           No.      Recommendation Summary

 ISP-I-07-12     5         Bureau of Administration’s Office of the Procurement Executive, Office of
                           Acquisitions Management, & Office of Small & Disadvantaged Business
                           Utilization




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008     83
                       In the 2006 inspection of the Bureau of Administration’s Office of
                       the Procurement Executive, OIG recommended consolidating local
                       guard program contracting in the Office of Acquisition Manage-
                       ment (A/LM/AQM). Few areas of procurement in the Department
                       called so obviously for reform as did local guard contracting which at
                       the time was estimated to cost the Department approximately $218
                       million.

                       On September 2008, the Under Secretary for Management issued a
                       Department-wide notice that A/LM/AQM had created a new branch
                       that deals solely with local guard contracts. This initiative should im-
                       prove oversight, standardize local guard contracting and reduce local
                       guard costs worldwide. The regional security officers on-site would
                       continue to be the CORs for the local guard contracts at their posts.
                       While it may be difficult to contract for local guard services from
                       Washington, enormous benefits should accrue from consolidating the
                       work for most overseas posts. The result should be essential protec-
                       tive services worldwide at the most cost-effective price.




Summary of Audit Reports Without Management
Decision for More Than Six Months

Report Number: 00-FM-011
Subject: Audit of Operations and Expenditures for Emergencies in the Diplomatic
and Consular Services
Date Issued: March 31, 2000
Reason for not being resolved: In a December 12, 2007, memorandum, the
Bureau of Resource Management (RM) stated the program is administered different-
ly than it was when the audit report was issued more than 7 years ago. RM suggested
a follow-up audit and said it considered action completed on all of the open recom-
mendations. OIG, in its May 20, 2008, response, said that until a follow-up audit or
additional information is provided, the recommendations are still pertinent. RM did
not provide additional information requested by the September 30, 2008, date speci-
fied in OIG’s May 20 request.
Projected date of resolution: March 2009


84      Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Report Number: 01-FMA-R-078
Subject: Information Technology Vulnerability Assessment at the Charleston
Financial Service Center
Date Issued: September 11, 2001
Reason for not being resolved: RM had not responded to recommendations 13-15
when the report was issued or to OIG’s most recent request for a response, sent on
June 16, 2008. Therefore, the three recommendations remain unresolved.
Projected date of resolution: March 2009

Report Number: AUD/CG-05-26
Subject: Review of Selected Grants Awarded to Institute for the Study and
Development of Legal Systems
Date Issued: October 18, 2005
Reason for not being resolved: In an August 25, 2006, e-mail to OIG, the Bureau
of Educational and Cultural Affairs (ECA) stated it lacked a sufficient number of
grants officers to address the report’s recommendations and would not be able to ad-
dress them until October 2006. As of September 30, 2008, ECA had not responded
to OIG’s January 24, March 4, and June 10, 2008, requests for a response to the
recommendations.
Projected date of resolution: March 2009

Report Number: AUD/CG-06-02
Subject: Application of Agreed-Upon Procedures to George Mason University
Awards
Date Issued: February 24, 2006
Reason for not being resolved: In an August 25, 2006, e-mail to OIG, ECA stated
it lacked a sufficient number of grants officers to address the report’s recommenda-
tions and would not be able to address them until October 2006. As of September
30, 2008, ECA had not responded to OIG’s January 24, March 4, and June 10, 2008,
requests for a response to the recommendations.
Projected date of resolution: March 2009

Report Number: AUD/FM-06-39
Subject: Internal Controls Related to Travel Advances
Date Issued: September 29, 2006
Reason for not being resolved: As of September 30, 2008, RM had not responded
to the report’s recommendations when the report was issued or to OIG’s most re-
cent request for a response, sent on June 16, 2008.
Projected date of resolution: March 2009




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   85
Report Number: AUD/FM-07-28
Subject: Internal Procurement Practices at Embassy Berlin
Date Issued: July 12, 2007
Reason for not being resolved: Embassy Berlin responded to OIG’s recommenda-
tions in a January 2008 cable. OIG will analyze the response to determine whether
the actions taken by the Embassy will satisfy the intent of the recommendations.
Projected date of resolution: March 2009

Report Number: AUD/IQO-07-20
Subject: Review of DynCorp International, L.L.C, Contract Number S-LMAQM-
04-C-0030, Task Order 0338, for the Iraqi Police Training Program Support
Date Issued: January 30, 2007
Reason for not being resolved: The Bureau of Administration disagreed with OIG
on the recommendation (No. 6) pertaining to the establishment and enforcement of
tenure limitations for contracting personnel. OIG is reviewing the Bureau’s justifica-
tion for not implementing this recommendation.
Projected date of resolution: March 2009

Report Number: AUD/CG-08-02
Subject: Independent Accountants’ Report on the Application of Agreed-Upon
Procedures on Costs Claimed by Young Men’s Christian Association of
Greater New York Under Department of State Grants
Date Issued: December 19, 2007
Reason for not being resolved: As of September 30, 2008, the Bureau of Edu-
cational and Cultural Affairs had not responded to OIG’s most recent March 4 or
June 10, 2008, requests for a response to the report’s recommendations.
Projected date of resolution: March 2009

Report Number: AUD/CG-08-11
Subject: Independent Accountants’ Report on the Application of Agreed-Upon
Procedures on Indirect Cost Rates Proposed by Sister Cities International, Inc.
Date Issued: January 17, 2008
Reason for not being resolved: As of September 30, 2008, the Bureau of Admin-
istration, Office of Logistics Management, Office of Acquisitions Management, In-
ternational Programs Division, had not responded to the report’s recommendation.
Projected date of resolution: March 2009




86       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS

 AUD/CG-08-04              Management Letter Related to the Audit of the Department
                           of State 2007 and 2006 Financial Statements
                           Leonard G. Birnbaum and Company, LLP
                           Financial Audit

 AUD/CG-08-22              Independent Accountants’ Report on the Application of
                           Agreed-Upon Procedures on Indirect Cost Rates Proposed
                           by American Refugee Committee, Inc.
                           Leonard G. Birnbaum and Company, LLP
                           Indirect Cost Rate Review

 AUD/CG-08-23              Independent Accountants’ Report on the Application of
                           Agreed-Upon Procedures on Indirect Cost Rates Proposed
                           by the Council on International Educational Exchange, Inc.
                           L.F. Harris & Associates, CPA, P.A.
                           Indirect Cost Rate Review

 AUD/FM-08-24              Independent Auditor’s Report on the International
                           Boundary and Water Commission, United States and
                           Mexico, U.S. Section, 2007 and 2008 Financial Statements
                           Leonard G. Birnbaum and Company, LLP
                           Financial Audit

 AUD/FM-08-25              Management Letter Related to the Audit of the
                           International Boundary and Water Commission,
                           United States and Mexico, 2007 and 2006 Financial
                           Statements
                           Leonard G. Birnbaum and Company, LLP
                           Financial Audit

 AUD/FM-08-26              Audit Report on the Foreign Service Retirement and
                           Disability Fund 2007, 2006, and 2005 Financial Statements
                           Leonard G. Birnbaum and Company, LLP
                           Financial Audit

 AUD/FM-08-27              Management Letter Related to the Audit of the Foreign
                           Service Retirement and Disability Fund 2007, 2006, and
                           2005 Financial Statements
                           Leonard G. Birnbaum and Company, LLP
                           Financial Audit

 Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   87
AUD/IP-08-28          Independent Accountant’s Report on the Application
                      of Agreed-Upon Procedures on Final Buyout Claim by
                      Enviro-Management & Research, Inc., Under Contract No.
                      S-FBOAD-98-D0010
                      Leonard G. Birnbaum and Company, LLP
                      Final Buyout Claim Review

AUD/CG-08-30          Independent Accountant’s Report on the Application of
                      Agreed-Upon Procedures on the Indirect Cost Rates
                      Proposed by Church World Service, Inc.
                      Leonard G. Birnbaum and Company, LLP
                      Indirect Cost Rate Review

AUD/CG-08-31          Independent Accountant’s Report on the Application of
                      Agreed-Upon Procedures on the Indirect Cost Rate
                      Proposed by Project Harmony, Inc.
                      L.F. Harris & Associates, CPA, P.A.
                      Indirect Cost Rate Review

AUD/CG-08-32          Independent Accountant’s Report on the Application of
                      Agreed-Upon Procedures on Indirect Cost Rates Proposed
                      by Nacel Open Door, Inc.
                      L.F. Harris & Associates, CPA, P.A.
                      Indirect Cost Rate Review

AUD/CG-08-34          Independent Accountants’ Report on the Application of
                      Agreed-Upon Procedures on Indirect Cost Rates Proposed
                      by The Graduate School, USDA
                      Leonard G. Birnbaum and Company, LLP
                      Indirect Cost Rate Review

AUD/FM-08-38          Independent Accountant’s Report on the Application
                      of Agreed-Upon Procedures: Retirement, Health Benefits,
                      and Life Insurance Withholdings/Contributions and
                      Supplemental Semiannual Headcount Report Submitted to
                      the Office of Personnel Management
                      Leonard G. Birnbaum and Company, LLP
                      Attestation Engagement




88    Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
APPENDIX 6: MANAGEMENT AND PERFORMANCE CHALLENGE




    The protection of personally identifiable information is a significant information
    security challenge for the Department. As of April 2008, the Department’s Passport
    Information Electronic Records System (PIERS) contained records on about 192
    million passports for about 127 million passport holders. Bureau of Consular Affairs
    officials said that there were about 20,500 users with active PIERS accounts as of
    May 2008 and that about 12,200 of these users were employees or contractors of the
    Department. PIERS is also accessed by users at other federal departments and agen-
    cies to assist in conducting investigations, security assessments, and analyses. Based
    on the results of a 2008 OIG review, there are many control weaknesses—including
    a general lack of policies, procedures, guidance, and training—relating to the preven-
    tion and detection of unauthorized access to passport and applicant information and
    the subsequent response and disciplinary processes when a potential unauthorized
    access is substantiated.

    In some cases, Department officials stated that the lack of resources contributed to
    the lack of controls and to the Department’s ability to assess vulnerabilities and risk.
    In response, the Bureaus of Consular Affairs and Administration took a number of
    corrective actions. These actions included issuing interim guidance on the various
    steps to be followed and decisions to be made in response to a potential incident of
    unauthorized access to passport records and applicant personally identifiable infor-
    mation and issuing a Department-wide personally identifiable information breach
    response policy. Additional actions to address the 22 recommendations made by
    OIG are underway by the Department, including conducting vulnerability and risk
    assessments of all passport systems.




    Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   89
90   Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
Broadcasting Board of Governors
92   Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
                                   INSPECTIONS




Alhurra’s Programming Policies and
Procedures (ISP-IB-08-45)

The Middle East Broadcasting Networks, Inc., is a nonprofit grantee of the Broad-
casting Board of Governors that operates Alhurra Television and Radio Sawa. In
response to a congressional request, OIG reviewed actions taken by Alhurra to
strengthen its procedures and policies, particularly its policies involving terrorists
or those who support them. This included how the Middle East Broadcasting Net-
works, Inc., had progressed in carrying out 24/7 streaming, archiving on Alhurra’s
Web site of all original programs, and the random translation of Alhurra’s original
programming by an independent entity.

OIG found that in the past year, Alhurra had taken significant steps to tighten its
procedures and policies in order to protect the credibility that is critical to fulfill-
ing its mission. These steps included updating its 2005 Journalistic Code of Ethics,
implementing new management controls over programming, and creating a journal-
istic training program.




                        Embassy Asuncion Best Practice


             In its inspection of Embassy Asuncion, Paraguay, OIG
             inspectors identified as a best practice the development by
             Embassy Asuncion’s public diplomacy section of a comput-
             erized system that downloads Voice of America News with
             hourly updates. The recordings, made available to journal-
             ists through a toll-free telephone line, ensure that small local
             media outlets have free access to up-to-date world news.
             The public diplomacy section tracks several dozen calls per
             week, but implementing the system in larger underdevel-
             oped countries could provide greater results.




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   93
94   Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
APPENDIX 1: BROADCASTING BOARD OF GOVERNORS
          INVESTIGATIVE ACTIVITIES

     Preliminary Inquiries
        Opened
	                                                   0
        Closed
	                                                   1

     Investigations
        Opened
	                                                   0
        Closed
	                                                   1
        Pending (9/30/08)
	                                        4

     Criminal Actions
        Referrals for Prosecution                                  0
        Indictments/Informations                                   0
        Convictions                                                0
        Sentencings (Months Imprisonment)                          0
        Sentencings (Months Probation)                             0
        Declinations                                               0

     Civil Actions
        Civil Referrals
	                                          0
        Civil Judgments
	                                          0

     Administrative Referrals
       Referrals for Personnel Action                              0
       Suitability Referrals to DS                                 0

     Administrative Actions
       Removals
	                                                  1
       Suspensions
	                                               0
       Reprimand/Admonishments
	                                   0
       Debarment Actions
	                                         0

     Monetary Recoveries
       Criminal Fines/Recoveries
	                                 $0
       Civil Recoveries
	                                          $0
       Administrative Recoveries
	                                 $0
     Total Investigative Recoveries                                $0


 Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   95
96   Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
                 APPENDIX 2: REPORTS ISSUED




ISP-IB-08-45             Alhurra’s Programming Policies and Procedures




Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   97
98   Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES




                                Table 1
                INSPECTOR GENERAL ISSUED AUDIT REPORTS

                        WITH QUESTIONED COSTS


                                                               Question        Unsupported
                                               Number of        Costs             Costs
               Type of Report                   Reports       (Dollars in       (Dollars in
                                                              Thousands)       Thousands)
      A.   For which no management
           decision has been made by the
           commencement of the reporting           0               $0                $0
           period

      B.   Which were issued during the
           reporting period                        0               $0                $0

           Subtotals (A + B)                       0               $0                $0

      C.   For which a management
           decision was made during                                $0                $0
           the reporting period based on
           formal administrative or judicial       0
           appeal                                                  $0                $0
           (i) dollar value of disallowed
           costs
           (ii) dollar value of costs not                          $0                $0
           disallowed
      D.   For which no management
           decision has been made by the           0               $0                $0
           end of the reporting period

           Reports for which no
           management decision was made            0               $0                $0
           within six months of issuance




     Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   99
                            Table 2
          INSPECTOR GENERAL ISSUED AUDIT REPORTS

             WITH RECOMMENDATIONS THAT FUNDS 

                    BE PUT TO BETTER USE

                     Type of Report                       Number of           Dollar Value
                                                           Reports          (in Thousands)
A.    For which no management decision has been
      made by the commencement of the reporting
      period                                                   0                  $0

B.    Which were issued during the reporting period
                                                               0                  $0
      Subtotals (A + B)
                                                               0                  $0
C.    For which a management decision was made
      during the reporting period                              0                  $0
      (i) dollar value of recommendations that were
      agreed to by management
      - based on proposed management action                    0                  $0
      -based on proposed legislative action
      (ii) dollar value of recommendations that were
      not agreed to by management                              0                  $0

D.    For which no management decision has been
      made by the end of the reporting period
                                                               0                  $0

      Reports for which no management decision was
      made within six months of issuance
                                                               0                  $0




100       Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
                                  ABBREVIATIONS




    AIGA                              Assistant Inspector General for Audits
    BBG                               Broadcasting Board of Governors
    CA                                Bureau of Consular Affairs
    CWS                               Church Worldwide Service
    DCM                               Deputy chief of mission
    Department                        U.S. Department of State
    DHS                               U.S. Department of Homeland Security
    DS                                Bureau of Diplomatic Security
    DS/PSP/DEAV                       Office of Physical Security Programs, Defensive
                                      Equipment and Armored Vehicle Division, DS
    ECA                               Bureau of Educational and Cultural Affairs
    EEB                               Bureau of Economic, Energy, and Business Affairs
    EMR                               Enviro-Management & Research, Inc.
    FISMA                             Federal Information Security Management Act
    FSI                               Foreign Service Institute
    FSRDF                             Foreign Service Retirement and Disability Fund
    HR                                Bureau of Human Resources
    HR/CSP                            Office of Civil Service Personnel Management,
                                      HR
    HR/REE                            Office of Recruitment, Examination and
                                      Employment, HR
    ICAO                              International Civil Aviation Organization
    ICE                               Bureau of Immigration and Customs
                                      Enforcement, DHS
    INL                               Bureau of International Narcotics and Law
                                      Enforcement Affairs
    INV                               Office of Investigations
    LE                                Locally employed


Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008   101
  MERO                              Middle East Regional Office
  NEC                               New embassy compound
  OBO                               Bureau of Overseas Buildings Operations
  OIG                               Office of Inspector General
  OMB                               Office of Management and Budget
  OPM                               Office of Personnel Management
  PEPFAR                            President’s Emergency Plan for AIDS Relief
  PIERS                             Passport Information Electronic Records System
  PM/DDTC                           Bureau of Political-Military Affairs, Directorate of
                                    Defense Trade Controls
  RM                                Bureau of Resource Management
  S/CT                              Office of the Coordinator for Counterterrorism
  SAR                               Semiannual Report to the Congress
  SIV                               Special immigrant visa
  USAID                             U.S. Agency for International Development
  USIBWC                            International Boundary and Water Commission,
                                    United States and Mexico, U.S. Section
  USICAO                            U.S. Mission to the International Civil Aviation
                                    Organization
  USUN Rome                         United Nations Agencies in Rome




102     Office of Inspector General Semiannual Report to the Congress, April 1, 2008 to September 30, 2008
                 Index   of   RepoRtIng RequIRements
          InspectoR geneRal act            of     1978,   as amended




RequiRement Subject                                                    Page numbeRS

Section 4(a)(2) Review of legislation and regulations                  14-15
Section 5(a)(1) Significant problems, abuses, and deficiencies         2

Section 5(a)(2) Significant recommendations for corrective action      21-56, 93

Section 5(a)(3) Prior significant recommendations unimplemented        75-83

Section 5(a)(4) Matters referred to prosecutive authorities            61-66

Section 5(a)(5) Information or assistance refused                      none

Section 5(a)(6) List of reports issued                                 69-71, 97

Section 5(a)(7) Summaries of significant reports                       21-56, 93

Section 5(a)(8) Audit reports–questioned costs                         73, 77, 95, 99

Section 5(a)(9) Audit reports–funds to be put to better use            74, 100

Section 5(a)(10) Prior audit reports unresolved                        84-89

Section 5(a)(11) Significant revised management decisions              83

Section 5(a)(12) Significant management decisions with which
                 OIG disagreed                                         none
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT

     of Federal programs and resources
	
              hurts everyone.
	

      Call the Office of Inspector General
	
                   HOTLINE

                  202-647-3320

              or 1-800-409-9926

       or e-mail oighotline@state.gov

     to report illegal or wasteful activities.
	

             You may also write to
	
          Office of Inspector General
	
           U.S. Department of State
	
             Post Office Box 9778
	
              Arlington, VA 22219
	

    Please visit our website at oig.state.gov


        Cables to the Inspector General
        should be slugged “OIG Channel”
           to ensure confidentiality.
               ble of contents
